<html>
<title> - COMBATING DISTRACTED DRIVING: MANAGING BEHAVIORAL AND TECHNOLOGICAL RISKS</title>
<body><pre>[Senate Hearing 111-510]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-510
 
  COMBATING DISTRACTED DRIVING: MANAGING BEHAVIORAL AND TECHNOLOGICAL 
                                 RISKS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 28, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
54-500                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
             Ann Begeman, Acting Republican Staff Director
              Brian M. Hendricks, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 28, 2009.................................     1
Statement of Senator Rockefeller.................................     1
Statement of Senator Hutchison...................................     2
    Prepared statement...........................................     3
Statement of Senator Klobuchar...................................    18
Statement of Senator Pryor.......................................    21
Statement of Senator Wicker......................................    23
Statement of Senator Dorgan......................................    24
Statement of Senator Lautenberg..................................    26

                               Witnesses

Hon. Charles Schumer, U.S. Senator from New York.................     4
Hon. Ray LaHood, Secretary, U.S. Department of Transportation....     6
    Prepared statement...........................................     8
Hon. Julius Genachowski, Chairman, Federal Communications 
  Commission.....................................................    10
    Prepared statement...........................................    13

                                Appendix

Hon. Maria Cantwell, U.S. Senator from Washington, prepared 
  statement......................................................    33
Hon. John Thune, U.S. Senator from South Dakota, prepared 
  statement......................................................    34
Edward Moreland, Vice President, Government Relations, American 
  Motorcyclist Association, prepared statement...................    34
Letter, dated November 3, 2009, to Hon. John D. Rockefeller IV 
  and Hon. Frank R. Lautenberg from James W. Cicconi, Senior 
  Executive Vice President, External and Legislative Affairs--
  AT&T Services, Inc.............................................    36
Letter, dated December 1, 2009, to Hon. John D. Rockefeller IV 
  from John Lannen, Truck Safety Coalition; Joan Claybrook, 
  Citizens for Reliable and Safe Highways; and Daphne Izer, 
  Parents Against Tired Trucks...................................    37
Letter, dated November 5, 2009, to Mary Phillips, Commerce from 
  Ted Knappen, Government Affairs Representative--FirstGroup 
  America and Greyhound..........................................    38
Response to written questions submitted to Hon. Ray LaHood by:
    Hon. Maria Cantwell..........................................    38
    Hon. Frank R. Lautenberg.....................................    39


                     COMBATING DISTRACTED DRIVING:
              MANAGING BEHAVIORAL AND TECHNOLOGICAL RISKS

                              ----------                              


                      WEDNESDAY, OCTOBER 28, 2009

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:36 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John D. 
Rockefeller IV, Chairman of the Committee, presiding.

      OPENING STATEMENT OF HON. JOHN D. ROCKEFELLER, IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    The Chairman. This hearing will come to order, and I'm 
going to give my opening statement and then the Ranking Member, 
Kay Bailey Hutchison, will do the same, and then we will call 
on an interesting, very successful, beginning political person 
from the State of New York, I think, the Honorable Charles 
Schumer.
    Senator Hutchison. I do try.
    The Chairman. Thank you so much. I needed that. I needed 
that a lot.
    At this very moment, right now, 11 percent of all drivers 
on the road are holding an electronic device. They are calling 
home on their cellphone or they are reading text from a friend, 
or they're sending an e-mail to their office on their 
BlackBerry, or they're looking up directions with a GPS system.
    That amounts to--please note--812,000 distracted drivers at 
any given moment. Those 812,000 drivers are not focused on the 
road; they're focused on their devices. In this is much danger. 
They're putting their own lives at risk. That is their right. 
They're putting their passengers' lives at their risk. That is 
not their right. And the lives of everyone else on the road, 
which is not their right.
    In September 2008, a 13-year-old person by the name of 
Margay Schee of Marion County, Florida, was riding home on the 
school bus. A truck driver who by his own admission was 
distracted by his cellphone, slammed into the back of the bus. 
The bus happened to be stopped with flashing red lights on. The 
bus caught fire and Margay was killed.
    Her terrible story is just one of thousands. Last year, 
distracted drivers killed 5,800 people and injured 515,000 
people. One almost doesn't know how to respond to something 
that awful. Deaths like Margay's are absolutely devastating 
and, as interesting, they're totally preventable.
    We define distracted driving broadly: reaching for an 
object or eating while behind the wheel, that counts. But 
cellphone using and texting in particular have increasingly 
dramatic--increased in recent years, and so have the number of 
accidents and deaths that they cause. We stand by and enjoy our 
BlackBerries and all the rest of it and it goes on.
    Commercial motor vehicle operators who are texting are 23 
times more likely to cause a crash or near-crash. Texting takes 
your eyes off the road long enough at high speeds to travel the 
length of a football field. Cars and trucks with a distracted 
driver are deadly weapons in fact, and we have a responsibility 
to get them off the road.
    Several states already have taken action, but not enough 
states have done the right thing. So Senators Hutchison, 
Lautenberg, Schumer, Thune, Klobuchar, and Vitter are now all 
co-sponsors of this magnificent piece of legislation to undo a 
horrible part of our life.
    The centerpiece of this legislation is a grant program for 
states that enact laws to prohibit texting and handheld 
cellphone use while driving. We're all guilty. We're all 
guilty. To qualify, a State would have to enact an absolute ban 
on texting while driving. You ask the question, well, how does 
that work? Well, we're going to have to figure out how that 
works because it's going to have to happen. And it has to carry 
significant penalties for any driver who causes an accident and 
there are no exceptions.
    States also would have to limit cellphone use to devices 
with hand-free capabilities. But no driver under our bill under 
the age of 18 could use a cellphone at all while still gaining 
experience on the road.
    To truly make our roads safer, we need to think bigger and 
more comprehensively. So this legislation models a new national 
education campaign based on the tremendous success of the drunk 
driving and, frankly, the seatbelt advertising campaigns. This 
particular Senator remembers ignoring the seatbelt law for a 
period of years. I can't explain to you why. Maybe it was 
because it was law, maybe it was because my parents were 
talking to me about it. But I ignored it, and what a fool I 
was. But I overcame that foolishness and I'm still alive.
    So we can all do this without raising our deficit one cent. 
The new grant program and advertising campaign would be paid 
for by redirecting unused surpluses from the current seatbelt 
safety program. To wit, no new costs.
    We should not have to mourn the tragic loss of any more 
precious lives needlessly cut short. It is time to bring a new 
sense of safety and shared responsibility to our roads. This is 
a major subject for this Committee.
    I call on the Ranking Member.

            STATEMENT OF HON. KAY BAILEY HUTCHISON, 
                    U.S. SENATOR FROM TEXAS

    Senator Hutchison. Thank you, Mr. Chairman. I thank you for 
calling this hearing and for taking the lead on the bill that 
we are co-sponsoring. I think this is a very important issue 
and I think the way we have directed the legislation is 
appropriate, and I will talk about that in a minute.
    Driving while distracted, unfortunately, is not a new 
phenomenon. But as technology has developed, we're no longer 
talking about just a cellphone. We're now talking about 
BlackBerries, GPS systems, MP3 players, televisions, and 
texting on the phones, as well as just listening, and other 
computerized devices.
    It means we do have to take action. The National 
Transportation Safety Board reports that in 2008 almost 6,000 
people died from crashes that resulted from distracted driving. 
This accounted for 16 percent of all traffic fatalities last 
year, up from 12 percent the year before.
    I think most of us would agree that driving while 
distracted poses serious safety risks to the drivers, but also 
to passengers and anyone sharing the road. Unfortunately, 
studies have shown that, while people are aware of the safety 
risks caused by using cellphone and BlackBerries, they still 
participate in doing it.
    A number of states are addressing this issue and have 
enacted different types of laws that will regulate the use of 
cellphones or sending text messages. The areas have been 
addressed in different ways and I think that our bill will 
clarify what would qualify for the grants.
    But most appropriately, I think too, the states should 
handle this issue. The states should devise these laws that 
best meet their needs. That is why I was very pleased when we 
worked on the bill together. This is a piece of legislation 
that takes the approach that States' rights will be respected. 
I do not believe states should be threatened with the loss of 
their Federal highway funds for not enacting these laws. But I 
do believe offering incentive grants to states that do enact 
laws that combat this is a sound way to address it.
    Grants would be funded through existing programs, so we are 
not spending one additional taxpayer dollar. I think this is 
another very important component. I don't think I could have 
possibly signed onto a bill that would increase our debt, but 
this does not.
    I look forward to working with the Chairman and other 
Committee members as we consider this legislation, and I also 
will say I hope we take up the motorcoach bus safety 
legislation as we are also looking at this safety measure, 
because I think that these two steps would take a major 
direction change for the states and for our country if we would 
address these two important transportation safety issues.
    Thank you, Mr. Chairman, and I look forward to hearing from 
Chairman Genachowski and Secretary LaHood.
    The Chairman. And Senator Schumer.
    Senator Hutchison. And Senator Schumer, of course. We know 
we'll hear from him.
    The Chairman. Yes, you.
    [The prepared statement of Senator Hutchison follows:]

  Prepared Statement of Hon. Kay Bailey Hutchison, U.S. Senator from 
                                 Texas

    Thank you, Mr. Chairman, for holding today's hearing. It is very 
appropriate that we consider the serious impact that distracting 
driving is having on the safety of the road traveling public and I want 
to welcome our witnesses, Secretary LaHood and Chairman Genachowski.
    Driving while distracted, unfortunately, is not a new phenomenon. 
But as technology has advanced, so have the distractions that exist for 
drivers. We now have cell phones, BlackBerries, GPS systems, MP3 
players, televisions and various other computerized devices that can 
catch the attention of drivers while behind the wheel.
    The National Transportation Safety Board (NTSB) reports that in 
2008, almost 6,000 people died from crashes that resulted from 
distracted driving. This accounted for 16 percent of all traffic 
fatalities last year, up from 12 percent of all fatalities in 2007.
    I think most of us would agree that driving while distracted poses 
serious safety risks not only to the drivers, but to passengers and 
anyone sharing the road. Unfortunately, studies have shown that while 
people are aware of the safety risks caused by using cell phones and 
BlackBerries while driving, they still participate in this behavior.
    A number of states are already examining this issue and have 
enacted laws to regulate the use of cell phones and the sending of text 
messages. For example, in Texas, drivers under the age of 18 are 
prohibited by law from using a wireless communication device while 
operating a motor vehicle. Texas also prohibits the use of a wireless 
communication device within a school crossing zone, with an exception 
for the use of a hands free device. Additionally, Texas prohibits 
school bus drivers from using cell phones or text messaging while 
driving a bus with passengers younger than 18.
    I think it is most appropriate for the states to handle this issue 
and devise laws on distracted driving that best meet the needs of their 
particular state. That is why I am very pleased to join with Chairman 
Rockefeller, as well as Senators Thune, Lautenberg, and Schumer, in 
introducing legislation that takes this very approach and respects 
states' rights. I, for one, do not believe states should be threatened 
with a loss of their Federal highway funds for not enacting distracted 
driving laws prescribed here in Congress.
    Our bill would instead offer incentive grants to states that enact 
laws to combat distracted driving. It would be funded through existing 
programs, so we are not spending any additional taxpayer dollars. I 
look forward to working with the Chairman and the other committee 
members as we consider this and other important highway safety 
legislation--including bus safety legislation, which I would argue 
should be approved along with any other highway safety legislation 
reported by this Committee in the weeks ahead.
    Again, thank you, Mr. Chairman. I look forward to hearing from the 
witnesses.

              STATEMENT OF HON. CHARLES SCHUMER, 
                   U.S. SENATOR FROM NEW YORK

    Senator Schumer. Thank you, Mr. Chairman, and I very much 
appreciate you and Senator Hutchison extending me the honor of 
testifying before our great Commerce Committee today. I want to 
thank you members of the Committee, Secretary LaHood, and FCC 
Chairman Genachowski, who worked for me way back when, for 
being here today to discuss the importance of combating 
distracted driving.
    Mr. Chairman, when my two daughters first learned to drive 
just a few years ago I worried about their safety. That was 
when cellphone use was pretty widespread and I worried about 
them talking on the phone and driving. But text messaging 
wasn't as popular as it is today. So in a few short years the 
roads have gotten only more dangerous. Ten years ago most of us 
didn't know what texting was. Now it's become ubiquitous. Last 
December, the last month for which we have statistics, 
Americans sent over 110 billion text messages, and that doesn't 
count the billions of e-mails sent by BlackBerry, which is 
probably even greater.
    The technology is a blessing and it's a curse. It's a 
blessing in that it improves communication, but it's a curse 
because when used improperly, such as a driver behind the 
wheel, it causes enormous risk. We all have--we have all seen 
the research which concerns what we know intuitively: It's 
extremely dangerous for a driver to take his or her eyes off 
the road to send, receive text messages.
    So this summer, along with Senator Klobuchar on your 
Committee and Senators Menendez, Landrieu, and Hagan, together 
we introduced the Alert Drivers Act, which would mandate that 
states pass laws banning texting while driving. Though more and 
more states are passing texting bans, it remains the case that 
fewer than half the states have banned the practice as of 
today.
    Mr. Chairman, I'm thrilled that you've introduced 
legislation, and look forward to working with you on both our 
bills as we move forward to enact a ban on texting. Chairman 
Rockefeller's bill and our bill are slightly different. Senator 
Rockefeller and Hutchison's approach focuses on carrots in the 
form of grants to states to help them enact texting bans, while 
our bill utilizes sticks to incentivize states to enact bans. 
But regardless of the difference of our approaches, we all have 
the same goal in mind, to make the road safer by keeping our 
drivers focused. Many of us support each other's legislation 
because we think the best way to go is both carrots and sticks.
    You, Mr. Chairman, have graciously co-sponsored our bill as 
well as Senator Lautenberg, and of course Senator Klobuchar was 
on there from the get-go. So it's my hope and belief that in 
the end we'll have a bill that combines the best of both 
worlds.
    I just want to take a minute to explain how the Alert 
Drivers Act works and why we crafted it the way we did. It 
takes a tough, no-excuses approach to a texting ban. It 
requires the states to enact bans that meet federally set 
minimum standards or lose 25 percent of their Federal highway 
funding. We thought long and hard about how to write this bill 
and ultimately modeled it after the national minimum drinking 
age law, which passed in 1984, which also withheld a percentage 
of highway funds from any State that did not have and enforce a 
minimum drinking age of 21.
    We did this because we saw that the drinking age law, by 
wielding the threat of withholding highway funds, worked in 
getting states to comply. Before that law the country faced an 
epidemic of drunk driving, mostly among young people. Only 22 
states, similar to today, had passed a minimum drinking age of 
21 when the law passed. 3 years after it passed, every single 
state did. The pattern has been repeated with other similar 
Federal laws, such as the zero tolerance law, and not in any 
case in any of these laws has any State ever lost a dime of 
Federal funding as a result of laws that condition highway 
money on safe driving laws. Of course, it is a Federal 
responsibility. Safety of the highways, ever since the National 
Highway Act has been a Federal responsibility.
    Public support is growing. The Ford Motor Company endorsed 
our bill. So did the American Trucking Association, even though 
their members would be affected by this.
    Now, we're not naive. We know that banning texting while 
driving won't stop every texter on the road, just like 
outlawing drinking while driving hasn't stopped people from 
getting behind the wheel after a few drinks. And incidentally, 
statistics show it's more dangerous to text while you drive 
than to drive drunk. That's an astounding statistic that is 
counterintuitive, but it's true.
    We owe it to the American people to do everything we can to 
promote safe driving. That means passing a ban on texting 
behind the wheel. I look forward to the opportunity to continue 
to work with you, Mr. Chairman, and your Committee to do so.
    Thank you for the chance to testify.
    The Chairman. Thank you, Senator Schumer, very much.
    I would ask now, Secretary LaHood, if you could come 
forward, and perhaps at the same time Chairman Genachowski 
could do the same, so you would be both at the witness table 
and we can question you both.
    Mr. Secretary.

           STATEMENT OF HON. RAY LaHOOD, SECRETARY, 
               U.S. DEPARTMENT OF TRANSPORTATION

    Secretary LaHood. Thank you, Mr. Chairman and Ranking 
Member Hutchison and members of the Committee. Thank you for 
the opportunity to appear before you today to discuss the most 
important issue of distracted driving. Chairman Rockefeller, I 
especially appreciate your leadership and the leadership of 
others on this Committee.
    Transportation safety is the Department's highest priority. 
Distracted driving is a dangerous practice that has become a 
deadly epidemic. Our research shows that unless we take action 
now the problem is only going to get worse, especially among 
our Nation's youngest drivers. This trend distresses me deeply 
and I am personally committed to reducing the number of 
injuries and fatalities caused by distracted driving.
    Four weeks ago, the Department of Transportation hosted a 
summit to help us identify, target, and tackle the fundamental 
elements of the problem. We brought together over 300 experts 
in safety, transportation research, regulatory affairs, and law 
enforcement. More than 5,000 people from 50 states and a dozen 
countries also participated in the Summit via the web. We heard 
from several young adults who had engaged in distracted driving 
and who discussed the terrible consequences of their actions. 
We also heard from several victims of this behavior whose lives 
have been changed forever. Mothers and fathers who lost 
children, and children who lost a parent told their stories. I 
want you to know I personally promised these families that I 
would make this issue my cause.
    We were privileged to have Senator Pryor and Senator 
Klobuchar as well as Senator Schumer participate. I want to 
thank them for attending and for dedicating time and energy to 
addressing this problem.
    The unanimous conclusion of the participants is that 
distracted driving is a serious and ongoing threat to safety. 
This conclusion is borne out by the facts. Our latest research 
shows that nearly 6,000 people died last year in crashes 
involving a distracted driver and more than half a million 
people were injured.
    This is not a problem caused by just a few negligent 
drivers. To the contrary, AAA Foundation for Traffic Safety, a 
nonprofit educational and research organization, reports that 
67 percent of drivers admitted to talking on their cellphone 
within the last 30 days while behind the wheel, and 21 percent 
of drivers indicated they had read or sent a text or e-mail 
message, a figure that rose to 40 percent for those drivers 
under the age of 35.
    As shocking as these numbers are, it is clear that this 
problem is only getting worse and that the youngest Americans 
are most at risk. While the worst offenders may be the 
youngest, they are not alone. On any given day last year, an 
estimated 800,000 vehicles were driven by someone who used a 
hand-held cellphone at some point during their drive. People of 
all ages are using a variety of hand-held devices, such as 
cellphones, personal digital assistants, navigation devices, 
and they're behind the wheel.
    However, the problem is not just confined to vehicles on 
our roads. It affects all modes of transportation.
    Experts agree that there are three types of distractions: 
number one, visual, taking your eyes off the road; number two, 
manual, taking your hands off the wheel; and number three, 
cognitive, taking your mind off the road. While all 
distractions can adversely impact safety, texting is the most 
troubling because it involves all three types of distractions. 
In the words of Dr. John Lee of the University of Wisconsin, 
this produces ``a perfect storm.''
    For all of these reasons, at the conclusion of the Summit, 
I announced a series of concrete actions that President Obama's 
Administration and DOT are taking to put an end to distracted 
driving. The President's Executive Order banning texting while 
driving for Federal employees is the cornerstone of these 
efforts and sends a strong, unequivocal signal to the American 
public that distracted driving is dangerous and unacceptable. 
The Executive Order prohibits Federal employees from engaging 
in text messaging in three ways: while driving government-owned 
vehicles, when using electronic equipment supplied by the 
government while driving, and while driving privately owned 
vehicles when on official government business.
    The ban takes effect government-wide on December 30, 2009. 
However, I have already advised all 58,000 DOT employees that 
they are expected to comply with the order immediately.
    DOT is also working internally to formalize compliance and 
enforcement measures, and we are in close consultation with the 
General Services Administration and the Office of Personnel 
Management, providing leadership and assistance to other 
Executive Branch Agencies to ensure full compliance with the 
Executive Order by all Federal departments and agencies no 
later than December 30 this year.
    DOT is also taking other concrete actions to reduce 
distracted driving across all modes. For instance, one year ago 
we began enforcing limitations on texting and cellphone use 
throughout the rail industry. We are taking the next step by 
initiating three rulemakings: one, codifying restrictions on 
the use of cellphones and other electronic devices in rail 
operations; two, to consider banning text messaging and 
restricting the use of cellphones by truck and interstate bus 
operators while operating a vehicle; and three, disqualifying 
school bus drivers convicted of texting while driving from 
maintaining their commercial driver's licenses.
    We will work aggressively and quickly to evaluate 
regulatory options and initiate rulemaking as appropriate. 
Moreover, our State and local partners are the key to the 
success we have in addressing distracted driving. I have 
encouraged our State and local government partners to reduce 
fatalities and crashes by identifying ways that states can 
address distracted driving in their Strategic Highway Safety 
Plans and Commercial Vehicle Safety Plans. To assist them in 
their efforts, I have directed DOT to develop model laws with 
tough enforcement features for all modes of transportation.
    There are other affirmative measures that states can take 
immediately to reduce the risks of distracted driving. For 
example, we are encouraging the installation of rumble strips 
along roads as an effective way to get the attention of 
distracted drivers before they deviate from their lane.
    Education, awareness, and outreach are also essential 
elements of our action plan. These measures include targeted 
outreach campaigns to inform key audiences about the dangers of 
distracted driving. We are still researching the effectiveness 
of combining high visibility enforcement with outreach 
campaigns in the distracted driving context, but we are hopeful 
that such efforts may prove effective in the same way that 
we've been able to reduce drunk driving and increase seatbelt 
use.
    All of these measures are the beginning, not the end, to 
solve the problem of distracted driving. DOT will continue to 
work closely with all stakeholders to collect and evaluate 
comprehensive distracted driving-related data needed to better 
understand the risks and identify effective solutions. And the 
Administration will continue to work with Congress, State and 
local governments, industry, and the public to end the dangers 
posed by distracted driving and encourage good decisionmaking 
by drivers of all ages. We may not be able to break every one 
of their bad habits--but we are going to raise awareness and 
sharpen the consequences.
    I want to particularly thank Congress and this Committee, 
for its dedication to combating distracted driving, and I look 
forward to further collaboration with this Committee and other 
committees of Congress to tackle this menace to society.
    I look forward to your questions. Thank you, Mr. Chairman.
    [The prepared statement of Secretary LaHood follows:]

           Prepared Statement of Hon. Ray LaHood, Secretary, 
                   U.S. Department of Transportation

    Chairman Rockefeller, Ranking Member Hutchison, and members of the 
Committee:
    Thank you for the opportunity to appear before you today to discuss 
the important issue of distracted driving. Chairman Rockefeller, I 
especially appreciate your leadership on this important issue.
    Transportation safety is the Department's highest priority. 
Distracted driving is a dangerous practice that has become a deadly 
epidemic. Our research shows that unless we take action now, the 
problem is only going to get worse, especially among our Nation's 
youngest drivers. This trend distresses me deeply, and I am personally 
committed to reducing the number of injuries and fatalities caused by 
distracted driving.
    Four weeks ago, the Department of Transportation (DOT) hosted a 
Summit to help us identify, target and tackle the fundamental elements 
of this problem. We brought together over 300 experts in safety, 
transportation research, regulatory affairs, and law enforcement. More 
than 5,000 people from 50 states and a dozen countries also 
participated in the Summit via the web. We heard from several young 
adults who had engaged in distracted driving and who discussed the 
terrible consequences of their actions.
    We also heard from several victims of this behavior, whose lives 
have been changed forever. Mothers and fathers who lost children, and 
children who lost a parent, told us their stories. And I want you to 
know, I promised these families that I would make this issue my cause.
    We were privileged to have Senator Pryor and Senator Klobuchar of 
this Committee participate in the Summit. I want to thank you all for 
attending, and for dedicating your time and energy to addressing this 
problem. The unanimous conclusion of the participants is that 
distracted driving is a serious and ongoing threat to safety. This 
conclusion is borne out by the facts. Our latest research shows that 
nearly 6,000 people died last year in crashes involving a distracted 
driver, and more than half a million people were injured.
    This is not a problem caused by just a few negligent drivers. To 
the contrary, the AAA Foundation for Traffic Safety, a nonprofit 
educational and research organization, reports that 67 percent of 
drivers admitted to talking on their cell phone within the last 30 days 
while behind the wheel, and 21 percent of drivers indicated they had 
read or sent a text or e-mail message, a figure that rose to 40 percent 
for those drivers under the age of 35.
    As shocking as these numbers are, it is clear that this problem is 
only getting worse, and that the youngest Americans are most at-risk. 
While the worst offenders may be the youngest, they are not alone. On 
any given day last year, an estimated 800,000 vehicles were driven by 
someone who used a hand-held cell phone at some point during their 
drive. People of all ages are using a variety of hand-held devices, 
such as cell phones, personal digital assistants, and navigation 
devices, when they are behind the wheel. However, the problem is not 
just confined to vehicles on our roads--it affects all modes of 
transportation.
    Experts agree that there are three types of distraction: (1) 
visual--taking your eyes off the road; (2) manual--taking your hands 
off the wheel; and (3) cognitive--taking your mind off the road. While 
all distractions can adversely impact safety, texting is the most 
egregious because it involves all three types of distraction. In the 
words of Dr. John Lee of the University of Wisconsin, this produces a 
``perfect storm.''
    For all of these reasons, at the conclusion of the Summit I 
announced a series of concrete actions that the Obama Administration 
and DOT are taking to put an end to distracted driving.
    The President's Executive Order banning texting and driving for 
Federal employees is the cornerstone of these efforts and sends a 
strong, unequivocal signal to the American public that distracted 
driving is dangerous and unacceptable. The Executive Order prohibits 
Federal employees from engaging in text messaging:

  <bullet> While driving government-owned vehicles;

  <bullet> When using electronic equipment supplied by the government 
        while driving; and

  <bullet> While driving privately-owned vehicles when on official 
        government business.

    The ban takes effect government-wide on December 30, 2009. However, 
I have already advised all 58,000 DOT employees that they are expected 
to comply with the Order immediately. DOT is also working internally to 
formalize compliance and enforcement measures, and we are, in close 
consultation with the General Services Administration and the Office of 
Personnel Management, providing leadership and assistance to other 
Executive Branch agencies to ensure full compliance with the Executive 
Order by all Federal departments and agencies, no later than December 
30.
    DOT is also taking other concrete actions to reduce distracted 
driving across all modes. For instance, 1 year ago, we began enforcing 
limitations on texting and cell phone use throughout the rail industry. 
We are taking the next step by initiating three rulemakings:

  <bullet> One to codify restrictions on the use of cell phones and 
        other electronic devices in rail operations;

  <bullet> One to consider banning text messaging and restricting the 
        use of cell phones by truck and interstate bus operators while 
        operating vehicles;

  <bullet> And a third to disqualify school bus drivers convicted of 
        texting while driving from maintaining their commercial 
        driver's licenses.

    We will work aggressively and quickly to evaluate regulatory 
options and initiate rulemakings as appropriate.
    Moreover, our State and local partners are keys to any success we 
have in addressing distracted driving. I have encouraged our State and 
local government partners to reduce fatalities and crashes by 
identifying ways that states can address distracted driving in their 
Strategic Highway Safety Plans and Commercial Vehicle Safety Plans. 
And, to assist them in their efforts, I have directed DOT to develop 
model laws with tough enforcement features for all modes of 
transportation.
    There are other affirmative measures that states can take 
immediately to reduce the risks of distracted driving. For example, we 
are encouraging the installation of rumble strips along roads as an 
effective way to get the attention of distracted drivers before they 
deviate from their lane.
    Education, awareness and outreach programs also are essential 
elements of our action plan. These measures include targeted outreach 
campaigns to inform key audiences about the dangers of distracted 
driving. We are still researching the efficacy of combining high 
visibility enforcement with outreach campaigns in the distracted 
driving context, but we are hopeful that such efforts may prove 
effective in the same way that we have been able to use them to reduce 
drunk driving and increase seat belt use.
    All of these measures are the beginning, not the end, to solving 
the problem of distracted driving. DOT will continue to work closely 
with all stakeholders to collect and evaluate comprehensive distracted 
driving-related data needed to better understand the risks and identify 
effective solutions. And the Administration will continue to work with 
Congress, State and local governments, industry and the public to end 
the dangers posed by distracted driving and encourage good 
decisionmaking by drivers of all ages. We may not be able to break 
everyone of their bad habits--but we are going to raise awareness and 
sharpen the consequences.
    I particularly want to thank Congress for its dedication to 
combating distracted driving, and I look forward to further 
collaboration with you as we work to tackle this menace to society.
    That concludes my testimony. I look forward to answering your 
questions.

    The Chairman. Thank you, Secretary LaHood.
    Now, Chairman Genachowski.

    STATEMENT OF HON. JULIUS GENACHOWSKI, CHAIRMAN, FEDERAL 
                   COMMUNICATIONS COMMISSION

    Mr. Genachowski. Thank you, Chairman Rockefeller, Ranking 
Member Hutchison, and other distinguished members of the 
Committee, for the opportunity to testify on the important 
topic of distracted driving. I commend your leadership in 
holding this hearing to address this urgent problem and the 
introduction today of bipartisan legislation. The FCC hopes to 
be a resource to you as you consider this legislation.
    I also want to commend Secretary of Transportation LaHood 
for his excellent statement and consistent leadership on this 
issue.
    Let me begin by giving some context to the serious and 
dangerous problem of distracted driving caused by the use of 
mobile communications devices and then describe some avenues 
that the FCC is pursuing to be a constructive part of the 
solution.
    First, context. Mobile wireless devices and networks are a 
major contributor to job creation in our economy, have become a 
fixture of everyday life. Wireless cap expenditures from 1998 
to 2008 totaled more than $200 billion. Growth in wireless 
devices has been astronomic. In 1995 only 34 million people 
subscribed to mobile phone service. By the summer of 2009 there 
were 276 million subscribers, and we heard earlier today the 
compelling data on the amount of text message usage that we are 
seeing.
    Today the vast majority of teenagers, four out of five, 
have mobile phones, as parents well know. Mobile devices 
connect us every day to family, friends, and colleagues. They 
hold the promise of helping to meet many of the Nation's most 
significant challenges, from empowering first responders to 
providing instant medical assistance to letting us effectively 
operate an energy-saving smart grid.
    The popularity of mobile devices, however, has had some 
unintended and very dangerous consequences. According to AAA, 
nearly 50 percent of teens admit to texting while driving. The 
National Highway Traffic Safety Administration reported in 2008 
that driver distraction is the cause of 16 percent of all fatal 
crashes and 21 percent of crashes resulting in injury.
    There's no way around it. This is an urgent challenge, with 
literally fatal consequences, that must be addressed. There is, 
however, as others have said, no single solution to this 
challenge. The responsibility lies with all of us, individuals, 
companies in the wireless space, as well as government.
    One necessary step is to develop a cultural norm that 
driving while texting is completely unacceptable. In this 
regard, I'd like to acknowledge the work of CTIA, the industry 
trade association, in coordination with the National Safety 
Council, for initiating a joint campaign with the slogan ``On 
the Road, Off the Phone,'' focused on educating teen drivers on 
the dangers of distracted driving. They've devised a website 
for parents and teens that includes suggested ground rules for 
driving and have rolled out PSAs warning of the dangers of 
texting and driving.
    Individual wireless carriers have also launched educational 
campaigns. I hope the results of these campaigns will be 
measured and continually improved based on their results.
    On the Federal level, I applaud Secretary LaHood and the 
Department of Transportation for leading an active, coordinated 
effort to increase public awareness of the dangers of 
distracted driving. And I salute the leadership the President 
has shown, including the issuance of an executive order that 
prohibits Federal workers from texting while driving on the job 
or when using government vehicles.
    I also, of course, recognize the central role of the states 
in this area, as the legislation introduced today recognizes. 
According to the Governors Highway Safety Association, 18 
states as well as the District of Columbia have made it illegal 
to text while driving, but of course the majority of states 
have not yet, and we've heard discussion about that already 
today.
    The FCC has a role to play here as well, for example 
potentially identifying data that can help address this 
important issue and helping to educate the public and 
supporting innovative problem-solving. To this end, we at the 
Commission can bring to bear our recent outreach expense with 
the digital television transition, as well as broadband, to 
increase public awareness of the dangers of distracted driving. 
We'll consult with the Department of Transportation as we 
institute a consumer education campaign. We will explore 
collaborations to support the safe use of mobile devices with 
our existing network of licensees, public safety entities, 
trade associations, tribal, state, and local counterparts, and 
consumer groups.
    Already the FCC's Consumer and Governmental Affairs Bureau 
has issued a consumer advisory and is now preparing a broader 
educational campaign. We hope to serve as a resource to a 
variety of organizations, such as schools, public safety 
entities, consumer groups, and others. I've also directed the 
agency's Consumer and Governmental Affairs Bureau to provide 
educational information on the FCC website on the importance of 
reducing distracted driving, with links to other organizations 
working on this issue. In fact, the Bureau has already launched 
a web page on distracted driving and is working hard on other 
educational initiatives.
    New ideas, advances in technology, and entrepreneurial 
thinking, can also induce changes in consumer and driver 
behavior and otherwise help address the serious problem of 
distracted driving. Parents want tools to help keep their new 
teenage drivers focused solely on driving while they're behind 
the wheel. Insurance companies may want to encourage safer 
driving by giving discounts for people using such technologies. 
Employers may want such devices to prevent employees from 
texting while driving.
    Because the FCC licenses and establishes policies for 
mobile services and approves certain devices for use in the 
consumer marketplace, the FCC can potentially play a productive 
role with incentivizing and enabling technology and encouraging 
the deployment and the development of marketplace solutions. In 
the past the FCC has authorized spectrum use for the purpose of 
promoting safety around various forms of transportation.
    In connection with communications technology and distracted 
driving, some smartphones and other technologies allow users to 
control with their voices their mobile phones and vehicle 
systems. Some have suggested that these technologies might be 
used by drivers to avoid the dangerous distraction of looking 
at device screens. There may also be opportunities to use RFID 
sensor technology in keychains that would disable selected 
functions on a driver's mobile device, activated by the startup 
of their car.
    In addition, there is what some call ``haptic technology,'' 
which simulates a sense of touch, creating the impression of 
buttons or controls even on flat surfaces. Could haptics be 
used to give drivers more control over their cars and 
electronic devices while keeping their eyes on the road? Could 
existing voice-to-text technologies be used to improve safety? 
Are even these technologies too dangerous while in the car? 
These are all questions that should be explored.
    The FCC can play a part in encouraging innovative 
technologies that could potentially reduce injury and loss of 
life due to distracted driving. We're examining whether there 
are ways in which we can create a climate that will allow 
consumers and industry to have more options in addressing this 
serious problem.
    Finally, with respect to FCC staff, I have been urging FCC 
employees to set an example regarding this issue. I reinforced 
to agency employees the importance of complying with the 
President's executive order banning the use of Federal devices 
to text while driving, as well as banning the use of personal 
devices while driving government vehicles. I've urged FCC 
employees to go further and avoid texting and driving at all 
times and to encourage their families and friends to do 
likewise.
    In closing, I look forward to continuing to work with the 
Committee, with Secretary LaHood, industry, innovators and 
consumers on this important issue, and thank you for the 
opportunity to testify today.
    [The prepared statement of Mr. Genachowski follows:]

       Prepared Statement of Hon. Julius Genachowski, Chairman, 
                   Federal Communications Commission

    I would like to thank Senator Rockefeller, Ranking Member 
Hutchison, and other distinguished members of the Committee for the 
opportunity to testify on the important topic of distracted driving. I 
want to commend Secretary of Transportation Ray LaHood for his 
excellent statement and his leadership on this issue.
    This hearing has been called to explore a pressing concern: the 
increasing level of distracted driving relating to the use of 
communications devices, and the safety risks posed by that use. In this 
statement, I will briefly discuss some of the context for this problem, 
and then describe some actions that the Federal Communications 
Commission is pursuing to be a constructive part of the solution.
    First, context. Communications technologies, particularly mobile 
wireless devices and networks, are a major contributor to job creation 
and the economy. According to CTIA, wireless capital expenditures from 
1998-2008 totaled more than $217 billion. In addition to promoting 
economic growth, these technologies connect us every day to family, 
friends and colleagues and are powerful tools for addressing many of 
the major challenges facing the Nation. Mobile communications can be a 
life-saver, improving emergency response by, for example, providing 
stranded motorists with immediate means to reach help, and by giving 
ambulance services, public safety answering points, and other first 
responders instant access to 21st Century communications networks.
    Mobile communications can also help promote better health care--for 
example, by enabling remote diagnosis and monitoring, providing better 
care at lower cost for patients with diabetes, heart disease, and other 
illnesses. And mobile communications can play a role in improving 
education and fostering a clean energy future.
    Further, mobile broadband will contribute significantly to our 
Nation's overall broadband strategy, which, as Congress has directed, 
must seek to provide all Americans with high-speed Internet access.
    Growth in wireless devices has been astronomic. In 1995, only 34 
million people subscribed to mobile phone service. By the summer of 
2009, there were 276 million subscribers. Today, the vast majority of 
teenagers--four out of five--now have mobile phones, as parents well 
know.
    The popularity of mobile devices, however, has had some unintended 
and even dangerous consequences. We now know that mobile communications 
is leading to a significant increase in distracted driving, resulting 
in injury and loss of life. According to AAA, nearly 50 percent of 
teens admit to texting while driving. The National Highway Traffic 
Safety Administration reported in 2008 that driver distraction is the 
cause of 16 percent of all fatal crashes and 21 percent of crashes 
resulting in an injury. It has also been reported that the use of cell 
phones and other devices is responsible for 636,000 crashes, resulting 
in 2,600 deaths, 342,000 injuries, and a financial toll of $43 billion 
annually. The same report noted that, according to Federal statistics, 
812,000 drivers are using their cell phones at any given moment. 
Distracted driving endangers life and property and the current levels 
of injury and loss are unacceptable. There's no way around it--this is 
an urgent problem that simply must be addressed.
    I do not believe there is a single solution to this challenge. The 
responsibility lies with all of us--individuals, companies in the 
wireless space, as well as government. Everyone involved can and should 
take appropriate action, with the goal of dramatically reducing and 
ultimately eliminating the risk of distracted driving due to the use of 
communications devices.
    Individuals should take personal responsibility. Adults should 
drive responsibly, and families and friends should encourage each other 
and help each other drive responsibly. Drivers of all ages--not just 
teenagers--should refrain from texting while driving. We should develop 
a cultural norm that driving while texting is totally unacceptable.
    The wireless industry has made some strong first efforts to raise 
public awareness. The industry trade association, CTIA, in coordination 
with the National Safety Council, announced a joint campaign with the 
slogan ``on the road, off the phone''--focused on educating teen 
drivers on the dangers of distracted driving. Together they have 
devised a website for parents and teens that includes suggested ground 
rules for teen drivers, and have rolled out a public service 
announcement warning of the dangers of texting while driving.
    Government at all levels has a role to play as well. On the Federal 
level, I applaud Secretary LaHood and the Department of Transportation 
for leading an impressive, coordinated effort to increase public 
awareness of the dangers of distracted driving. In addition, the 
National Traffic Safety Administration has encouraged the Federal Motor 
Carrier Safety Administration--the agency tasked with reducing crashes 
of large trucks and buses--to prohibit mobile use by commercial drivers 
of school buses and motor coaches, except in emergencies. Also at the 
Federal level, as you are aware, the President recently issued an 
Executive Order that prohibits Federal workers from texting while 
driving on the job or when using government vehicles.
    We also recognize the central role of the states in this area. 
According to the Governor's Highway Safety Association, 18 states as 
well as the District of Columbia have made it illegal to text while 
driving. According to one report, the use of handheld devices would be 
43 percent higher in the District were it not for the District's 
texting while driving ban and the vigor with which police enforce it. 
Moreover, the National Traffic Safety Board has identified prohibiting 
the use of interactive mobile devices by young novice drivers as one of 
its top ``wish list'' items for rulemaking at the state level.
    The FCC also has a role to play--such as helping to educate the 
public and supporting innovative problem-solving.
    Education is vital to any comprehensive plan addressing distracted 
driving. Educational initiatives can alert the public to the dangers of 
getting distracted with mobile communications services while behind the 
wheel. We at the Commission should explore ways in which these 
educational messages can reach drivers through multiple avenues--
including through schools, public service announcements, and 
educational initiatives sponsored by the wireless industry itself.
    In this regard, we at the Commission can bring to bear our recent 
outreach experience with the digital television transition and on 
broadband. On an inter-agency basis, we will consult with the 
Department of Transportation as we institute a consumer education 
campaign. And outside of the Federal Government, we will explore 
collaborations to support the safe use of mobile devices with our 
existing networks of licensees; public safety entities; trade 
associations; tribal, state and local counterparts; and consumer 
groups.
    The FCC's Consumer and Governmental Affairs Bureau has issued a 
Consumer Advisory, launched a website, and is now preparing a broader 
educational campaign. We hope to serve as a resource to a variety of 
organizations such as schools, public safety entities, consumer groups, 
and others. I also directed the agency's Consumer and Governmental 
Affairs Bureau to provide information on the FCC website on the topic 
of distracted driving, with links to other organizations working on 
this issue.
    New ideas, advances in technology, and entrepreneurial thinking can 
also induce changes in consumer behavior. A ready market for technology 
solutions to address the dangers posed by distracted drivers should 
exist, and innovative products could be part of the solution. Parents 
want tools to help keep new, teenaged drivers in their households 
focused solely on driving while they are behind the wheel. Insurance 
companies may want to encourage safer driving by giving discounts for 
people using such technologies. Employers may also want such devices to 
prevent employees from texting while driving. Because the FCC licenses 
and regulates mobile services and approves devices for use in the 
consumer marketplace, the FCC can potentially play a useful role in 
enabling technology and encouraging the development of marketplace 
solutions.
    Some current technologies could potentially be adapted to address 
this issue now. Some smartphones have interfaces for people with visual 
impairments. Other technologies allow users to control, with their 
voices, their mobile phones and vehicle systems. Could these 
technologies be used by drivers to avoid the dangerous distraction of 
looking at device screens? What if your keychain had an RFID sensor 
that told your car to issue a Bluetooth command to disable certain 
functions on your device when you are the driver? In addition, there is 
what some call ``haptic'' technology, which simulates a sense of touch, 
creating the impression of buttons or controls even on flat surfaces. 
Could haptics be used to give drivers more control over their cars and 
electronic devices while keeping their eyes on the road? Could existing 
voice-to-text technologies be used to improve safety?
    The FCC would like to play a part in encouraging innovative 
technologies that can reduce injuries and loss of life due to 
distracted driving. We are examining whether there are ways in which we 
can act to create a climate that will allow consumers and industry to 
have more options in addressing this serious problem.
    Finally, I have been urging FCC employees to set an example 
regarding this issue. I reinforced to agency employees the importance 
of complying with the President's Executive Order banning the use of 
Federal devices to text while driving as well as banning the use of 
personal devices while driving government vehicles. I further urged FCC 
employees to avoid texting and driving at all times and to encourage 
their families and friends to do likewise.
    In closing, I look forward to continuing to work with the 
Committee, Secretary LaHood, industry and innovators on this important 
issue. Thank you for the opportunity to speak to you today.

    The Chairman. Thank you very much, Mr. Chairman.
    I will start the questioning. It seems to me if you're 
talking about 812,000 people at any given moment and they are 
driving lethal weapons, and if they get away with it that's 
fine, but when they don't get away with it we already know that 
5,000-plus people die and half a million people are injured 
from the grossest kind of negligence. And yet, it's a part of 
our lives. Nobody's ever really sort of done this kind of thing 
before.
    We've got to stop it. We've got to outlaw it. Arkansas, as 
Senator Pryor will discuss, has done this. But then again, I 
don't know how you change cultural habits. Texting--if you 
watched the President give the State of the Union, half the 
Congress is texting. That's a little exaggeration. Maybe a 
quarter of the Congress. I doubt there's much value in that 
texting, but on the other hand they're doing it because that's 
what people get trained to do.
    Everybody texts around here. You've got to text. If you 
don't text you're not with it and you're not educated. So you 
text.
    But I mean this. I mean this seriously. It's lethal 
behavior when you get in a car. Not when you get in the subway 
of this Capitol Building, but when you get in a car it's 
lethal. I am skeptical about being able to change people's 
behavior simply by passing a law. With respect to that, we're 
going to do it. Then it'll either be Chuck's harder one, 
Senator Schumer's harder one, or our carrot one, as he referred 
to it. But the only point is that you've got to make people 
stop.
    Now, my first question to both of you is how--and I'll 
start with the Secretary: How do people know if somebody is 
texting? For example, if there are two other passengers in the 
car and they perceive the texting and know that their lives are 
at risk--and again, the figure of the football field is just 
terrifying to me. If the average texting expense is the length 
of a football field, all kinds of accidents and deaths could 
take place in that amount of time.
    They could turn the driver in. They could use their 
cellphones, since they're not driving, to call somebody up and 
say: This guy is--I don't know how you stop it, even with laws. 
This is incredibly serious stuff that we're doing here, and 
it's new. But the State police aren't going to do it because 
they can't see it. They can see it if they get at the right 
angle, particularly on a cellphone. The feds don't have 
people--we don't have a Federal State police, so to speak. So 
how do you observe? How do you make people feel that they are 
being watched? My second part of that question is, is the only 
way you can do this is through technology, that in fact you 
can't change people's behavior because that's the way they 
operate, that's the way they exist and live, that's the way 
they talk to each other.
    Brothers and sisters text each other even if one's on the 
first floor and another one's on the second floor. They don't 
talk; they text. They don't read newspapers; they read it off 
of iPhones. I mean, it's all different. And yet this is a 
dangerous national problem.
    So can I have your thoughts, sir?
    Secretary LaHood. Well, this is an epidemic, Mr. Chairman. 
But it can be stopped. The classic example is .08. Who would 
have ever thought 10 years ago that we could get drunk drivers 
off the road? We've done it. Everybody knows what .08 means. 
There's strong law enforcement on this and people lose their 
licenses. In Illinois you lose your license for 3 months and 
you have to go to jail and serve at least 5 days for your first 
offense. ``Click it or ticket'' is something that people 
understand. That's why people put their seatbelts on now.
    So there are three ways in my opinion. Education, number 
one. We have to get into driver education programs that when 
you get in the car you put your seatbelt on, you put your 
cellphone in the glove compartment. We have to begin to teach.
    Part of education is peer pressure, saying to teenagers: If 
you see your friend texting, tell him to put the phone in the 
glove compartment; do not text. We have to make sure that we 
persuade parents not to try and call their children when 
they're driving to school, and their employers can't be calling 
their employees when they're driving home from work.
    We have to break these very, very bad habits. Part of it is 
education. Part of it is personal responsibility, telling one 
another this is bad behavior, you can't do it, you can't drive 
safely while you're texting.
    Then I think enforcement. We know that enforcement works 
with .08 and we know enforcement works when it comes to ``Click 
it or ticket.'' People do get tickets for not wearing 
seatbelts. That's something that law enforcement can observe. 
And we know that when law enforcement people arrest people who 
are driving and they're over .08, they get arrested and they 
get thrown in jail. You can put tough penalties on these 
things.
    Look, there's a law in Washington, D.C., you can't use a 
cellphone; it is illegal. But any time you drive down a street 
in Washington, look around you. We're hooked on these things.
    So it is personal responsibility, it is education, and it 
is enforcement. That's what happened with .08 and ``Click it or 
ticket.'' We cannot give up on finding solutions because this 
is an epidemic. We will save a lot of lives and a lot of 
injuries finding ways to do this, and we have proof that we can 
do it.
    The Chairman. Mr. Secretary, I'm overusing my time here. If 
somebody is drunk driving, a State policeman can usually see 
that. In fact, they don't approach the car. It's not the 
individual that they're looking at; it's the motion of the car, 
and they can have a sense of that. You say it stopped it. I 
would say it hasn't stopped it. I'd say it has diminished it, 
and maybe--and that is a worthy goal.
    What occurs to me is that you almost have to put this out 
of the control of the driver, using a cellphone or a text, so 
that some kind of technology which the FCC will come up with by 
the end of next week that as soon as you enter a car your 
cellphone and your texting, your texting equipment, is just 
disabled by some electronic impulse.
    I don't know how else it gets done. I don't think you can 
train people to do this, because people do it down here. They 
have to talk up here, but now they can have it silenced, or 
many of them--I don't think they're going to change. I don't 
think drunk driving, I don't think it's a proper connection, 
because people are looking at the car; you can tell. You cannot 
tell if people are texting.
    Secretary LaHood. Well, I would say this, Mr. Chairman. I 
would say if somebody is texting, they're weaving back and 
forth; if a policeman sees that and they find out they haven't 
been drinking, they can say: Have you been texting on your 
phone? If there's an accident and the law enforcement person 
shows up and the person hasn't been drinking, what caused the 
accident? Were you texting on your phone, and maybe taking the 
phone and looking to see if they were texting.
    There was a young woman in my home town of Peoria, all by 
herself, 16 years old, ran off the road, was killed, was on the 
front page of our Peoria Journal-Star newspaper. They looked at 
the phone and discovered she had been texting. These things can 
be detected by law enforcement, but there has to be good 
education--not only in drivers training programs, but by law 
enforcement.
    We can't give up. There are ways to do it. Maybe the .08 
blood alcohol standard isn't perfect, but we've taken a lot of 
drunk drivers off the road and saved a lot of lives. ``Click it 
or ticket'' has given people the idea that if they fasten their 
seatbelts, they'll save an injury or loss of life.
    The Chairman. I'm way over my time and I apologize. Senator 
Hutchison.
    Senator Hutchison. I so believe that our approach is right 
because I don't think we ought to get into states rights and 
have regulations that don't fit a State. The states have 
addressed this in very different ways, very different ways, but 
many of them are addressing it.
    So, Mr. Secretary, I have to say that you have, through 
rulemaking, indicated that you would ban texting altogether by 
truck drivers. I think that is the responsible role because 
truck drivers are interstate. Yet we have a problem with school 
bus drivers that really ought to be dealt with at the State 
level.
    So I want to ask, Mr. Chairman, if there are technology 
ways that we could use for helping with an issue like this or 
is there data collection that might be available at the 
Commission. I want to say that you look at the 
telecommunications industry and here are the organizations that 
are supporting our bill: Verizon, AT&T, T-Mobile, CTIA (The 
Wireless Association), American Trucking Associations, and 
Advocates for Highway and Auto Safety.
    I mean, I think the telecommunications companies are being 
very responsible here. They want to prevent these kinds of 
horrific accidents.
    So what can we do that doesn't encroach on states rights, 
but gets to the heart of this problem?
    Mr. Genachowski. Senator, I think there has to be a multi-
part solution to this very serious problem. I agree with 
Secretary LaHood and with the tenor of all the remarks, 
education and personal responsibility has to be part of the 
answer. Friends don't let friends text while driving. Law 
enforcement has to be part of the answer.
    I agree that technology has to be part of the answer, as 
usual with technology, in ways that we may not be able to 
anticipate right now. But one of the things that I think we can 
look at at the FCC is, one, what is the data? Can we get better 
data on actual practices of drivers, consumers, while driving? 
Can we find ways to incentivize the development of different 
kinds of technologies that may work? Parents may want their 
kids to have a particular technology. Employers may be 
interested in particular technologies. Drivers themselves might 
be interested in different technologies.
    I'm an optimist about the role that technology can play in 
driving solutions. Technology to some measure will respond to 
market demand and so there's a real relationship between 
education campaigns, helping parents understand what the issues 
are here--I think many parents do, but the awareness is growing 
even larger. The more the awareness, the more there will be 
market demand for technologies.
    At the FCC we can look at data and we can look at our rules 
to see if there are ways that we can accelerate and incentivize 
technologies that will steer this in the direction we all want.
    Senator Hutchison. Mr. Secretary, I know you have studied 
what the different states are doing, and you also are acting in 
your own capacity. Do you have any suggestions on, A, what you 
think the best practices are of the states or, B, any other 
data collecting that you might be able to have from the 
agencies that are studying these accident statistics?
    Secretary LaHood. Well, as usual the states are ahead. 
They're the incubators on this. I think there are 18 or so 
states that have already passed very tough laws against 
texting. I'm proud of my own home State of Illinois. They just 
passed a very, very tough law on eliminating texting while 
driving. I think it will save injuries and lives.
    I think the best thing for us to do, Senator, is to give 
you the best practices from the states, because they really are 
the ones that have taken the lead on this. We'll be happy to 
provide that, not only for the record but for you personally.
    Senator Hutchison. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    In order of appearance, Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Thank you very much, Mr. Chairman.
    Thank you, both of you. I did think that the conference 
this summer was a very good idea and really brought some 
national attention to this issue.
    I wanted to maybe go up in the air a little bit with this 
distracted driving issue, Senator LaHood, as we have in 
Minnesota and then into Wisconsin the ultimate example of 
distracted driving, and that was distracted driving at 37,000 
feet or distracted flying, as we found out this past week.
    I first wanted to thank you, your agencies, for taking 
prompt action. I know that the licenses have already been 
suspended for the pilots and the NTSB is still completing their 
investigation, but their preliminary findings--and we know 
they're not final yet--seem to point to the fact that the 
pilots were actually distracted. They didn't fall asleep, but 
they were looking at their laptops and checking out out crew 
schedules, while they had hundreds of passengers in the back, 
and flew for 91 minutes out, not answering their radio signals.
    Could you just shed some light, Secretary LaHood, on what 
we could be doing about this, in addition to our focus on 
distracted driving, if there's any--if we should just look at 
it as an aberration, if we should try to ban laptops for 
private use in cockpits, which was already the Delta rule, or 
we should look at some kind of loud buzzer in the cockpit so 
that they can hear it?
    It's almost ludicrous to think about it, but I just 
wondered if you had any view?
    Secretary LaHood. We think that any kind of distraction, 
whether you're driving a train, a plane, a car, a school bus, a 
transit bus, a light rail--you can't do it. You just can't do 
it. You cannot drive safely. There are many people, almost all 
of us, who board a plane or a train, put their children on 
school buses, with the idea that it will be the safest way to 
get where we're going from one point to another.
    We're not going to equivocate on this. Any kind of 
distraction, whether it's on trains, planes, or automobiles, is 
a distraction, and we should figure out ways to get these 
cellphones, the texting, the use of laptops, out of the hands 
of people who are supposed to be delivering the public 
someplace safely.
    Senator Klobuchar. Right now, while it is an airline rule 
not to have laptops for private use in the cockpits, it's not 
an FAA rule; is that right? It's something we could add?
    Secretary LaHood. We're going to look at this, but we have 
the ability to suspend the licenses of these two pilots.
    Senator Klobuchar. Even because of the fact that they 
weren't following the rules?
    Secretary LaHood. That's correct.
    Senator Klobuchar. All right. Thank you.
    Then back to the distracted driving issue, one of the 
criticisms that Senator Rockefeller brought up is that it's not 
effective, you can't enforce these. Yet I'd never heard that 
``Click it or ticket'' thing, Secretary LaHood. That was a very 
nice jingle.
    Could you just explain why there's not much of a penalty 
for the seatbelts, at least initially there wasn't, but yet 
somehow it changed an entire culture? How did that happen and 
how could you see that lesson being learned for the texting 
issue?
    Secretary LaHood. Because I think if you say something--all 
of us that have been in politics know if you say something 
often enough people start to believe it.
    Senator Klobuchar. Even if it's not true.
    Secretary LaHood. Even if it's not true.
    Senator Klobuchar. Exactly.
    Secretary LaHood. In the case of ``Click it or ticket'' it 
is true. If you put your seatbelt on you'll save an injury, 
you'll save a life. We do it year in and year out. We have a 
big promotion. I went to a nearby school this year, and we had 
a ``Click it or ticket'' assembly. We talked to kids about 
fastening their seatbelts.
    We know that it works. I believe that most people in 
America know what .08 means and they know if you're above .08 
you're going to lose your driver's license, you're going to 
lose your privileges, you may have to serve time in jail. Ten 
years ago most people didn't know about that.
    If you say something often enough--in driver education 
classes, if you tell kids you cannot text and be safe, and 
teach them that----
    Senator Klobuchar. Or if you text it you'll wreck it? I 
just thought I'd throw that out there.
    Secretary LaHood. Good.
    Senator Klobuchar. Not bad. You got it probably cheaper 
than an ad agency.
    Mr. Genachowski, could I just ask you--I was trying to 
think of that as he was talking. You said that the digital TV 
transition, that you picked up some ideas for how you can do 
public education campaigns. We all know that was sort of slow 
in starting, then it picked up speed and eventually worked, the 
digital TV transition. Thank you for that. Could you talk about 
what lessons were learned that could be applied here?
    Mr. Genachowski. Well, there is no substitute for hard 
work, and over the DTV transition, staff members of the FCC 
worked very hard, one at the agency in thinking about how to 
craft a message that people can understand; and two, they went 
out to where the most relevant audiences were in lots of 
different ways, whether it was at shopping malls or at sports 
games, to communicate, to communicate with them.
    There was a combination of an offline strategy and an 
online strategy. We'd be happy to get back to you and think 
more concretely about what the lessons learned from DTV that 
would be applicable to an awareness campaign around distracted 
driving. I think a good exercise to do in general would be to 
identify the elements of past campaigns, whether drunk driving 
or seatbelts or others, and pull out some lessons learned. This 
isn't the first time and it's not the last time that we'll be 
sitting around talking about the importance of educating the 
public about new dangers.
    Technology and mobile communications, I couldn't feel more 
strongly about the benefits they bring to all of us, including 
around public safety. You know, if you get into a car accident 
on the road, being able to communicate through a mobile device 
with someone is a huge benefit. And we want our first 
responders to have broadband 21st century mobile communication 
devices. I think we can both want that and want to have a very 
clear campaign that being distracted while you're driving 
because of technology devices is just wrong.
    The problems will keep on coming up and I think trying to 
isolate what we've learned from past awareness campaigns, 
education campaigns, especially around technology, can be an 
important part of this.
    Senator Klobuchar. Thank you very much.
    Thank you both.
    The Chairman. Thank you, Senator.
    Senator Pryor.

                 STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    Mr. Secretary, let me start with you if I may. I appreciate 
you inviting me to your Distracted Driving Summit. I thought 
that was very useful and I think the people there got a lot out 
of it.
    In your opening statement you mentioned basically the major 
finding is that we've got a problem with this and it's a major 
problem all over the country. But my question is, are you 
preparing a set of specific findings and maybe some steps that 
we can all take as a follow-up to that summit?
    Secretary LaHood. Absolutely. Our team at DOT is putting 
together some very good information, some very good 
recommendations. We have three rulemaking actions that we think 
are very important. Our people are working on those. But we are 
putting together some of the key recommendations and some of 
the actions that we'll be taking. We are putting that together.
    Senator Pryor. Right, and we look forward to seeing those 
when they're ready.
    I'm not trying to draw you into this legislative discussion 
that we're having, but I would like your thoughts on the carrot 
versus the stick approach, if you have a preference on how that 
would be structured.
    Secretary LaHood. I like both, Senator.
    Senator Pryor. OK. So you think we can do both? OK. That's 
fair enough.
    Now, let me ask--we don't have a NHTSA director.
    Secretary LaHood. That's correct.
    Senator Pryor. Do we know when one is going to be 
nominated?
    Secretary LaHood. Soon.
    Senator Pryor. What does that mean?
    Secretary LaHood. Stay tuned.
    Senator Pryor. OK. Well, I think obviously----
    Secretary LaHood. Let me put it to you this way, Senator. 
It's imminent.
    Senator Pryor. And it would help to have someone there. We 
all know that.
    Secretary LaHood. We have a very good Acting Administrator. 
Ron Medford has done an outstanding job. He's a very good 
safety guy. He's done a great job.
    Senator Pryor. Has the Federal Motor Carrier Safety 
Administration looked at initiating a rulemaking for commercial 
drivers?
    Secretary LaHood. Yes.
    Senator Pryor. Is that under way right now?
    Secretary LaHood. Yes.
    Senator Pryor. For the FCC, Mr. Genachowski, thank you for 
being here.
    Has the FCC looked at the technologies out there that might 
make this world a little bit safer when it comes to texting and 
driving? How much authority do you have and kind of where does 
your authority end and other people's begin?
    Mr. Genachowski. We haven't yet done a survey of the 
potential technology solutions, but it's something that we plan 
to do. We plan to understand the technology landscape better 
and to ask questions about what we can do to help accelerate 
the developments of technology that would help address this.
    With respect to our authority, we're just at the beginning 
of thinking about this. I know the legislation, if adopted, 
would give the FCC some concrete tasks and we look forward 
right now to being a resource to the Committee as it looks at 
this. It involves communications technologies. Of course it 
involves transportation, and this is something that I hope we 
can all work on together to pursue the multi-part strategy that 
we need to tackle this.
    Senator Pryor. Are you aware of any wireless firms who are 
taking initiatives to educate their customers and the general 
public on this danger?
    Mr. Genachowski. I believe they are. I think, as Senator 
Hutchison mentioned, the trade association has taken steps. 
Some of the individual carriers have. To me, what I would hope 
we see is not simply the launching of those campaigns, which I 
commend, but a process to measure and track results, an ongoing 
process to see what's working in terms of educating the public 
and constant improvement of those campaigns against measured 
results.
    Senator Pryor. My last question is really for both of you. 
I know that some car companies--the one I'm familiar with is 
Ford, but I'm sure others have this as well. Ford has a 
technology they call ``Sync,'' which apparently is sort of 
built into the vehicle, that somehow your wireless device will 
just sync with the vehicle. I'm not sure exactly how it works.
    I'm assuming the FCC has a little piece of that because it 
is wireless communication, but I'm assuming that NHTSA has most 
of that responsibility.
    Have we thought about trying to make that type of approach 
more widely available and perhaps even required in all U.S. 
vehicles? Have either of you looked at that?
    Secretary LaHood. Well, I was just in Detroit, Senator, and 
I visited Ford, GM, and Chrysler. This technology is something 
that will be in automobiles, but I will just tell you this. 
From my point of view, I think any distraction is a distraction 
that takes away from driving safely. You can put your phone in 
this little container that they have in the middle and it syncs 
all your numbers and you can use your voice. I think that's a 
distraction, Senator. But that is the latest technology and all 
the car manufacturers have it.
    I think if you're eating a hamburger, shaving, putting your 
makeup on, texting, using a cellphone, talking to somebody, all 
these things detract from your ability to drive safely.
    Senator Pryor. Well, one last thing. Mr. Chairman, you 
mentioned--as we close, you mentioned that Arkansas does have 
some law on the books and it does. 21 states ban teen drivers 
from talking on all cellphones. Arkansas is one of those. 17 
states ban school bus drivers from talking on cellphones. 
Arkansas is one of those. 18 states ban all drivers from 
texting and Arkansas is one of those.
    So I'm glad we're talking about this today. I'm glad we're 
having this hearing because it is something I think that we 
should deal with and try to do it as quickly as possible.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Pryor.
    Next is Senator Wicker.

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. Thank you, Mr. Chairman. I appreciate the 
hearing. I've learned a lot, and I hope that the authors of 
this legislation, for which I have the greatest respect and 
affection, will allow me to be the devil's advocate for a 
moment and possibly the skunk at the garden party.
    We've heard discussion of whether we should use the stick 
or the carrot. The Secretary said he likes both approaches. If 
forced to choose, I would choose the carrot. But I would also 
suggest to my colleagues that we might want to let the states 
continue to work on this for a while longer.
    Now, Mississippi, my state, is one of the states that has 
already acted on this. We've heard learned members of this 
Committee today say that states should handle this issue. Well, 
states are beginning to handle this issue and some states are 
quicker than others.
    We also heard testimony today that states should be the 
incubators for this, that we need to decide what best practices 
we need to be involved in data collection. I would suggest that 
the best way to do that is to allow the states to continue to 
do, as the Ranking Member suggested, that there may be 
legitimate reasons for states to have different approaches on 
this issue of distracted driving.
    We would all like to do what we can at the Federal level 
and what we are empowered to do under the Constitution to 
prohibit distracted driving. I agree with the Secretary, I 
think eating a hamburger is a lot more distracting than talking 
on a cellphone. So perhaps we ought to include eating a 
hamburger in this legislation since it almost goes without 
saying that that's more distracting.
    This is--don't misunderstand me. This is personal with me. 
After my daughter's first year in college she was driving back 
from Charlottesville, Virginia, to Tupelo, Mississippi, and on 
Interstate 40 the driver of a vehicle reached down to get 
another compact disk, and she ran off the interstate highway, 
Interstate 40, and the car turned over three times. My daughter 
was in the hospital for quite a while and suffered head 
injuries, and thankfully is OK and is expecting my first 
grandchild now. But it might be that some states would want to 
experiment with talking about that kind of distraction, Mr. 
Secretary.
    Our Chairman has said he is skeptical about how any of this 
would even work. And yet he says we'll go through it and we're 
going to do it anyway, regardless of whether we might be taking 
an approach that would be determined to work better if states 
were allowed to experiment more.
    Let me just read to our witnesses and to my colleagues 49 
U.S.C.S. 30105, ``Restriction on lobbying activities'': ``No 
funds appropriated to the Secretary for the National Highway 
Traffic Safety Administration shall be available for any 
activity specifically designed to urge a State or local 
legislator to favor or oppose the adoption of any specific 
legislative proposals pending before any State or local 
legislative body.''
    So we prohibit Federal employees from urging the adoption 
of legislation at the State or local level. And yet with this 
legislation we're going to say unless you as a State 
legislature take certain specific actions--and we are specific 
about it; there's a total ban in one respect and then there are 
nuanced bans based on age. We say that it's OK for us as a 
Congress not only to specifically urge legislatures to take 
certain actions, but there's a pot of money out there and some 
of you are going to get it and some of you aren't going to get 
it based on whether you follow what we in our wisdom in 
Washington, D.C., feel should be the approach.
    So count me as someone who wants to listen about the 
various approaches, who appreciates what the Secretary has done 
with regard to interstate commerce, and to say that I have 
confidence in the states to take testimony just as well as we 
can and to act on this. So I would choose the third approach 
and that is to continue letting them be the incubator on this 
issue.
    I thank the indulgement of my colleagues.
    The Chairman. I thank the Senator.
    Senator Dorgan.

              STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Dorgan. Mr. Chairman, thank you very much.
    With respect to Senator Klobuchar's comments, I'll be 
chairing tomorrow a hearing on the NTSB reauthorization. I 
assume we'll talk about distraction in the cockpit tomorrow 
with the National Transportation Safety Board.
    I listened with interest to my colleague Senator Wicker. 
I've been involved in these issues for a long while. My mother 
was killed by a drunk driver in a high-speed police chase. So I 
got involved in wondering, in how many states in the Nation was 
it perfectly legal to drink and drive at the same time, put 
your key in the ignition, have one hand on the neck of a bottle 
of Jim Beam, and drive off happy as a lark, completely within 
the law? Well, the fact is a good number of states allowed 
that. In fact, I think a few still do. You just can't be drunk. 
You can drink and drive. You just can't be drunk.
    I've been involved in these issues with drunk driving and 
MADD, Mothers Against Drunk Driving. We didn't make progress 
just because we entreated people to take this seriously. We 
made progress because, yes, we used carrots and yes, we used 
sticks. It doesn't work without it, unfortunately.
    I think here the issue is pretty clear. There are people 
losing their lives because of a change that's happening in our 
culture, and people are texting on the road. We all see it. We 
drive and watch and see what's going on.
    I do think, with due respect, you can eat a hamburger 
without looking at the meat. You can't be involved in texting 
without looking at the text. So when you see people text on the 
road, they're looking down at this language. So I do think 
there's a problem here.
    So here is the proposition, it seems to me. You talk about 
technology. Frankly, I don't know that there's going to be a 
technology that addresses this. I mean, there are technologies 
out there, I suppose, in which we talk about high-speed police 
chases in which the police could--you could put something in an 
engine of a car, the police could just shut down the car. Well, 
I don't want--we can't allow that to happen. That technology 
probably exists.
    I think that the car companies, some of them are 
advertising built-in Bluetooth capability. Incidentally, I 
think it's also--I think this text issue is separate and rises 
way up here with respect to danger. But distraction in the car? 
Take a look at these cars that have these sophisticated 
consoles up in front with maps and navigation capabilities and 
130 different channels of satellite radio and so on, right 
here.
    In fact, if you get in some taxicabs they've got a suction 
cup and put them right in the middle of the driver's window 
almost. Distraction? Sure, I suppose it is, right. It gets back 
to the point that there are a lot of distractions.
    But I do think, having said all that, this issue of texting 
while driving particularly rises to a different level. So I 
appreciate the work that the Chairman and the Ranking Member 
have done here. I think it's a step in the right direction. I 
tend to agree a bit with Mr. LaHood, with Secretary LaHood, 
that almost always on these kinds of issues, whether it's 
seatbelts or drunk driving or required training on high-speed 
police chases, when it's appropriate, when it isn't, almost 
always carrots have been required to be added to a stick of 
some type, and then things change completely.
    When I started working on drunk driving issues, drunk 
driving meant somebody knowingly sort of smiled and gave you a 
pat on the back: I saw you got picked up; too bad. But 
everybody understood it happened. No more. It's serious 
business. Those are killers on the road who get drunk and get 
behind the wheel.
    Things change and I think if we move in a thoughtful 
direction here with legislation that's properly crafted, I 
think we'll make a difference here. I know that--the other 
evening I was watching the national news and I think there is 
one State that has passed a State law that says texting while 
driving shall be equivalent in penalty and seriousness of drunk 
driving. If you're picked up for texting, it's the same as if 
you're picked up for drunk driving. I think that's Utah that 
has now changed the law.
    So there's progress being made out there in the states. But 
I do think that ultimately there's going to have to be both a 
pull and a push, and I think what you have done today, I would 
say to the Chairman and the Ranking Member, is something that 
is worthy in terms of moving us in the direction of safer 
highways and safer streets.
    I appreciate, Mr. Secretary, your testimony, and Mr. 
Genachowski. Let me just ask the question quickly. I've almost 
drained the time here. But on the technology, because the 
Chairman was asking about will there be technology, my sense is 
I don't think that we're going to solve this by technology. Do 
you really think that, Mr. Genachowski?
    Mr. Genachowski. I think no single part of it alone will 
solve it and that we need education, we need to change cultural 
norms, we need to look at the enforcement piece of it, and we 
need to look at the technology piece of it, and we need to--
this issue is going to be, unfortunately, around for a while. 
Technology will continue to evolve. The car will continue to 
evolve.
    So putting in place different mechanisms now and measuring 
what's happening, what's working, and then doubling down on 
those strategies seems to me to be a way to approach it.
    Senator Dorgan. Especially with the new vehicles, they're 
beginning--I used to fly a bit. These new cars are starting to 
look like the inside of a cockpit. I mean, there is so much 
sophistication and dials and gauges and amplification of 
information to the driver.
    Again, let me just compliment the Chairman and the Ranking 
Member. I think this issue, particularly of texting and the use 
of cellphones, is a very serious issue and I think you advance 
that by holding this hearing and introducing legislation.
    The Chairman. Thank you, Senator Dorgan.
    Senator Lautenberg, you're up if you can get to your seat.

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. I'm texting while hearing.
    [Laughter.]
    It's distracting.
    I'd like to ask a few questions. We've been having terrible 
problems in the State of New Jersey with accidents, and 
particularly when it's something that happens with a large 
truck, the outcome is typically disastrous. We know that the 
volume of cellphones, as the Chairman talked about, in use in 
the country, and more and more people lining up behind the 
wheel of a truck, car, train, school bus, with cellphones and 
checking the Internet and sending text messages, just a bad 
time and a bad outcome.
    Now, I've joined with Chairman Rockefeller in introducing 
legislation that would give states strong incentives to ban 
texting or using hand-held cellphones while driving. Secretary 
LaHood, we're glad to see you, as we are Mr. Genachowski. Do 
you think that it's in the best interest of all drivers, 
regardless of vehicles and so forth, to prohibit texting or 
using hand-held cellphones? That's a pretty good objective for 
wanting better safety on our highways? You have no problem with 
that?
    Secretary LaHood. No, sir. I agree with that.
    Senator Lautenberg. Chairman Genachowski, it has been 
proposed by I think a lot of folks to use technology to block 
wireless signals in cars. Concerns, however, are raised about 
the legitimate communications and even 911 calls that might be 
interrupted inadvertently. What do you see--how do you see 
dealing with that opportunity or does it present a larger 
problem than it does a solution?
    Mr. Genachowski. Senator, the first thing I'd say is the 
one thing on which there should be no confusion about is that 
texting while driving is bad, and whatever the legal framework 
is, it shouldn't happen. As I said before, friends shouldn't 
let friends text while driving.
    With respect to specific technologies or regulatory steps 
like the one that you suggested, I wouldn't want to get ahead 
of where the FCC is. I think we need to take more of a look at 
different potential strategies that are within our 
jurisdiction. Obviously, the Transportation Department will as 
well, and there are areas that we can work on together.
    I do think that over time we will get better information on 
what strategies exactly work. I note that the bill introduced 
today doesn't mandate a particular outcome in particular 
States. It allows for some experimentation and we will get over 
time better information on which strategies work, and then as a 
country we can pursue those and accelerate those.
    Senator Lautenberg. It sounds, however, like a good 
opportunity to stop the risk in bulk form, if I may use the 
expression. The question is do we lose anything by having 
cellphones jammed there. I mean, you look at the 911 calls that 
otherwise might not be made, on the other hand, but there'd be 
a lot more safe consciousness on the highways if they weren't 
there.
    Mr. Secretary, this is a little bit of a diversion, but 
we're talking about safety in travel. Last week a flight from 
San Diego to Minneapolis overshot its destination by 150 miles, 
1 hour late in landing. The pilots said, as we see in public, 
they were using their laptops and distracted from instructions 
from air traffic control.
    However, FAA does not regulate the use of laptop computers 
above 10,000 feet. What might the Department do to regulate the 
use of these devices to make sure that when commercial aircraft 
are being flown that there is no--there we take every possible 
action to prevent these kinds of distractions from occurring?
    Secretary LaHood. Senator, Administrator Babbitt suspended 
the two pilots from flying--and they have a right of appeal--
because of the use of laptops in the cockpit. We're going to 
take a very close look at that entire issue, but they've been 
suspended from flying because their licenses have been pulled 
and they have 10 days to appeal that.
    Senator Lautenberg. Do you think, does anything come to 
mind or is being considered right now to eliminate, reduce 
certainly, that possibility of that kind of an action to take 
place while the flight's in the air?
    Secretary LaHood. Well, Senator, I have my own ideas about 
this, but I'm going to work with the FAA, the folks at the FAA 
and in our Department, to deal with this issue.
    Senator Lautenberg. All right. We hope you've got your own 
ideas. We know that you use them well.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you, Senator Lautenberg.
    I don't know. Maybe there's something wrong with me, but 
this hearing is not going the way I wanted it to go. It doesn't 
strike me as having the urgency which I expected it to have. I 
keep thinking of 812,000 people now and now and now and now 
forever, except it will grow as the population grows, texting 
or being on a cellphone or otherwise being distracted. Then I 
think of that football field and I think of what can be done in 
the way of damage as a car loses control.
    We all know the feeling because we've all done a bit of 
that, so we know the feeling, and nothing happened, so we go 
on.
    Then we start talking about, well, should this be done by 
the feds, should this be done by the states, and that becomes a 
bit sort of philosophical constitutional argument. I'm 
interested in saving lives here. You know, we're talking about 
educating a generation. Well, drinking is one thing, but when 
you have people from the age of 5 through the age of 50 or 70, 
all of whom can text, all of whom use cells, education is a 
good thing and let's get those driver's ed classes in high 
schools pumped up on that and do the educating.
    I just think that's slow, and I keep thinking of 812,000 
people and 500,000 people injured and 5,000 killed every year, 
and I say: What are we doing about this? So I want to get back 
to technology. Yes, let's do education. I'm all for that. I'm 
all for that. But this is not--you know, drinking is a 
compulsion. Drinking is an addiction, drinking is a habit, 
drinking is for teenagers, drinking is for non-teenagers, 
whatever. But this other covers everybody, pretty much all the 
time, all the time.
    And I don't feel the urgency in this hearing. So I want to 
ask you this. I was interested in something that Senator 
Schumer said, that when he used the stick method, that is, 
threatened to take away highway funds, nobody ever lost their 
highway funds. I didn't know that, hadn't heard that. Kind of 
interesting. I don't know what that tells me or what it doesn't 
tell me.
    Senator Dorgan. Mr. Chairman, if I might on that point.
    The Chairman. Yes.
    Senator Dorgan. It would suggest perhaps, as has been the 
case in other circumstances, that the states complied before 
they would take the penalty.
    The Chairman. That could be, and that could be.
    So on the technology part, because I don't think we have 
time to waste on this, I suggested and you pulled me up short, 
Mr. Chairman, and correctly--I used the idea somehow that an 
electronic impulse would go out and everything would be shut 
down. Then you brought up the fact or somebody brought up the 
fact that, well, somebody needs help and they need to call 911. 
I checked with the Ranking Member. Neither of us ever called 
911 in our entire life, but that doesn't tell you anything. A 
lot of people have to do that. So I haven't been--I can't solve 
that problem right now.
    I also know that people aren't using their land lines as 
much because having a land line and having a cellphone are more 
than people can afford often. So land lines are going down at 
about 6 to 8 percent a year in their usage in this country. You 
know that, Mr. Chairman, OK. So that means they're using their 
cellphones, so that means the only way they can call is by 
using their cellphones.
    So they're calling people, they have no idea where those 
people are, but they know they're going to get them because 
they know they have their cellphones, because everybody always 
has their cellphones in their pocket or on their belt. That 
brings me up a bit short because the cellphone can be answered 
by saying, this cellphone is currently not available for usage 
because the driver is driving, or something of that sort.
    I cannot believe we cannot do the technology. Look, we're 
talking about carbon capture and sequestration. I think we can 
get all that research done in 3 years. That's a lot more 
complicated than what you're talking about. I'm very glad that 
Ford Motor Company is doing something. I'm also even gladder 
that Secretary LaHood thinks it's a distraction, just the fact 
that what they're doing is a distraction. I like that attitude. 
That's the way I come at it as a father and as a grandfather.
    I don't know why we can't come up with technology that 
disables texting machines and cellphones, and then we'd have to 
come up with a countertechnology which enables them, provided 
everybody hasn't been killed, to be able to dial 911 and, I'm 
sorry, I'm going to be 3 hours late for getting home and your 
parents are worried. Sorry, that doesn't count. That's out. 
That's out. That's distracted. You can't do that. Emergencies 
you have to take care of.
    Technology it seems to me can solve this problem, and we 
can educate people. But I think--my view is we've got to do the 
technology. And I don't really give a hoot about States' rights 
or Federal rights on this one. I just give a hoot about 
results. I keep thinking of those 812,000 people right now as 
I'm speaking, and we're not doing anything about it.
    Reactions, please?
    Mr. Genachowski. There needs to be the sense of urgency 
that you described on this issue. I think, if I may say, 
holding this hearing today and shining light on this issue will 
itself save lives. I think what you've done at this hearing is 
issued a challenge to innovators to develop technologies that 
will help solve this problem without causing other ones.
    The Chairman. If I'm doing that, I'm not aware that I'm 
doing that. If I'm doing that successfully, I'm glad I'm doing 
that successfully.
    Mr. Genachowski. I think you've issued that challenge.
    The Chairman. But you're in your position because you do 
technology. John Holden's in his position because he does 
technology. And we ought to be able to come up with something 
that works while we educate people, so that the technology can 
be less used.
    But I think we have to have an answer quickly.
    Secretary LaHood. Well, we agree with you, Mr. Chairman, 
and we're ready to work with you on your legislation, and we 
hope legislation passes. We're going to do our part at DOT by 
the enforcement that we can do. But we're very grateful to you, 
all of you, for the Senators who came to our Distracted Driving 
Summit, for the ones that have taken an interest, for the bills 
that have been introduced. It's all part of the solution.
    I'm optimistic. I think at the end of the day we will find 
ways to save lives and to save injuries by getting cell phones 
out of the hands of drivers, particularly teenagers. This is an 
epidemic among teenagers. Teenagers are hooked on their 
cellphones and they're hooked on texting. Parents are part of 
the problem.
    The Chairman. Every businessman, everybody in politics, 
everybody who carries--who does anything in life is hooked on 
cellphones and is hooked on texting to a somewhat less extent, 
although I agree with Senator Dorgan that it raises--it becomes 
more of a problem. It becomes the football field because of the 
length of the transaction.
    That's why I think it's different than drunk driving.
    Secretary LaHood. I used .08 and seatbelts as an 
illustration to say that we can solve it. Both of those proved 
it. They did prove it. You don't get a slap on the back and 
sent home if you're above .08 any more, and that's the way it 
was 10 years ago. If you got stopped and you didn't have your 
seatbelt on 10 years ago, maybe you got a ticket for speeding, 
but you did not get a ticket for not having a seatbelt. Today 
you do. And today you don't get sent home if you're above .08.
    That's where we want to be with distracted driving. We will 
get there, with your help, the help of Congress, DOT and lots 
of other stakeholders around the country, including parents who 
have lost children and grandparents who have lost children. 
They're the most devastated by this. I can tell you, there's a 
whole crowd of people out there in America that are ready to be 
helpful to you and to us to solve this.
    The Chairman. So who does the technology? Then I'll shut 
up. Who does the technology? Whose responsibility? Who takes 
the lead? Are we going to wait on Detroit to do it or are we 
going to wait on the Chairman of the FCC to do it? Are we going 
to wait on the Secretary of Transportation to do it? Who's 
going to do this?
    Senator Lautenberg. Mr. Chairman, if you want me to get 
into the technology business I'll be happy to give it a try. We 
can get in the enforcement business, the rulemaking business. 
But I don't know if the Chairman wants Ray LaHood in the 
technology business.
    The Chairman. If Ray LaHood comes up with a good idea and 
the Chairman doesn't, that's called free public policy.
    Mr. Genachowski. We will work with you, we will work with 
this Committee, we will work with Secretary LaHood, on ways to 
incentivize the development of technologies that can help solve 
this and solve it quickly.
    The Chairman. I hope so.
    I'm sorry, I say to my Ranking Member, because you may have 
other questions you want to ask.
    Senator Hutchison. Mr. Chairman, I don't have further 
questions. But I will say that I think this has been a spirited 
hearing. I think people have been engaged. I think our 
witnesses have been very engaged, and I think that we're going 
to make progress on this. I think we're going to pass our bill. 
I think our bill is the best one. I think it is the right mix 
of States' rights respect, but also giving incentives. I think 
it's been very productive, despite what you think, Mr. 
Chairman.
    Senator Klobuchar. Can I just ask just a few more 
questions?
    The Chairman. Yes.
    Senator Klobuchar. The other thing I was thinking in 
response to your call for urgency was, when I was at the 
Distracted Driving Summit there was a family there from 
Minnesota, the Dixit family from Eden Prairie, and their 
daughter took a ride with a friend in Wisconsin in college and 
they lost her because the other kid driving reached in her 
purse and got something out, went off the road, and they lost 
their daughter in that split second.
    So I think that these stories and the people on that train 
in California across the country give us a sense of urgency.
    I was also thinking about what Senator Wicker said and 
listening to that and the story of his daughter, which was very 
sad. Fortunately, she lived. I have no idea if she had a 
seatbelt on, but I do know that a lot of people who survive 
automobile crashes now survive because they had a seatbelt on. 
A lot of that was those laws changed because of pressure on the 
national level, not just the State level.
    I know in the State of Minnesota we were one of the last 
states to enact .08, and I don't think it would have happened 
without the Federal law. In fact, we had a legislator who's 
kind of colorful who stood up in the chamber of the House in 
Minnesota and said: If we adopt .08, how are my constituents 
going to get home in the morning?
    So luckily, the world has changed since then, and I know it 
personally because my dad had three arrests for DWI, and 
finally when he got that last one, it was in the last decade 
and it made a difference, because the penalties were more 
severe. And he changed his life and he's not drinking any more 
and he's really doing great. That happened because of the 
pressure on the Federal level for the stiffer penalties.
    I just end with two things. One is there has been a lot of 
talk about teenagers, and I agree with you. I have a teenager 
and I've seen them all the time with their texting, although 
she doesn't do as much as others. But I'm hopeful that we do 
not limit these rules. I know some states have looked at this. 
I think Wisconsin is looking at this, to limit it just for 
teenagers, because, as the Chairman has pointed out, there are 
issues. I've seen many politicians looking at texts who are not 
teenagers while they're driving.
    The second thing is that I just throw out there for maybe 
Secretary LaHood is this idea of the kind of enhanced penalties 
that we have. This would be a state issue. The states would do 
this, for drunk driving. For instance, if you kill someone when 
you're drunk it's a lot easier to prove, as I know from when I 
was a prosecutor, than if you just were reckless. And it's very 
possible that we could do the same with texting, so that it 
would be a more automatic penalty, the things we were referring 
to with Utah and the like.
    So while the texting ban is important, I also am hopeful 
that the states will start having enhanced penalties when 
deaths or injuries occur as a result of texting. Maybe you want 
to end by discussing that.
    Secretary LaHood. I don't want to just do it for teenagers. 
I think texting is a distraction for any person. It's an 
epidemic among teenagers. I can tell you that people my age and 
generations beyond me don't do a lot of texting. They may do 
some, but not a lot. Teenagers do.
    The other point is I do think strong law enforcement and 
tough penalties are the answer. If you're going to enact a law, 
make tough penalties. In Illinois if you get caught the first 
time above .08, 5 days in jail and you lose your license for 3 
months, no equivocations, no ifs, ands, or buts about it. That 
has taken a lot of drunk drivers off the road and saved a lot 
of lives.
    So I say tough penalties work.
    Senator Klobuchar. Would you also say that the Federal 
inducements and the Federal Government pushing----
    Secretary LaHood. When the Federal Government said if you 
don't--some people aren't going to like this. I'm glad Senator 
Wicker's gone.
    Senator Klobuchar. This is why we're doing this right now, 
Secretary LaHood.
    Secretary LaHood. When Congress said set the speed limit at 
a certain limit or you're not getting your highway funds, what 
happened? People started to slow down to a speed limit that was 
established universally. And the states that didn't, they 
didn't get their money. Very few states didn't get their money.
    Senator Klobuchar. Well, that's why I'm also on Senator 
Schumer's bill, as well as the carrot bill. I think they're 
both worth looking at.
    Thank you.
    Senator Lautenberg. Mr. Chairman, if I may have a moment. 
I, immodestly, am the author of the 21 Drinking Age Bill and 
the .08 bill. With the Drinking Age Bill, the year was 1984 
when we passed it. We found out that, having experienced 
incentive-oriented opportunities for states, it didn't do a 
darn thing. Finally, we imposed a penalty and they came. Some 
of them were dragging in at the last minute, and Washington, 
D.C., was one of the last to accept it. They didn't want to 
have that kind of control imposed on them.
    So when you look at these things--Mr. Chairman, you said 
that you had kind of a revelation when talking about Chuck 
Schumer's bill, which I am also a co-sponsor of. But 
unfortunately, incentives don't carry the weight.
    To your suggestion about the need to hurry up here, the 
immediacy of the problem, we heard it from Senator Klobuchar. 
That is, start the penalty routine right away.
    Tell the states that, we're about to render penalties if 
you don't put action into force. But even if we can't do that, 
I think there probably is a way for the Department of 
Transportation to initiate a system that says, OK, as of next 
month we want to know about police enforcement of these rules, 
and start to save people's lives. Good suggestion.
    Senator Klobuchar. Mr. Chairman, you know what the best 
thing was about this hearing? No one did their BlackBerries 
during it. Everyone was listening.
    The Chairman. This dais is high.
    Senator Klobuchar. It wasn't that much. There was some 
minimal BlackBerrying at the beginning and then it went away.
    The Chairman. All right. I thank both of you very, very 
much. We have our work to do and this is just the--the 
discussion has been going on for a long time, but 812,000 as we 
speak.
    The hearing is adjourned.
    [Whereupon, at 4:10 p.m., the hearing was adjourned.]


                            A P P E N D I X

Prepared Statement of Hon. Maria Cantwell, U.S. Senator from Washington

    Mr. Chairman and Ranking Member Hutchison, thank you for calling 
this hearing. I want to welcome Secretary LaHood and Chairman 
Genachowski.
    First, I want to commend Chairman Genachowski's for your leadership 
on the Commission's Notice of Proposed Rulemaking on net neutrality. 
Net neutrality is not only about the future of the Internet, it is 
really about our Nation's economic future, as the Internet each day 
becomes more integral to everything we do. I believe transforming the 
six net neutrality principles into practical and implementable rules 
will create certainty in the marketplace. It is the right thing to do.
    Mr. Secretary, I want to thank you for holding the Distracted 
Driving Summit. It was a very timely conference to look at the best 
ways to reduce the number of crashes and deaths due to distracted 
driving. Motorists handle any number of distractions each and every 
time they drive, from conversations with passengers, to changing CDs or 
the radio station, to rubbernecking as a result of seeing something 
that catches their eye on the roadside.
    PEMCO Insurance in Seattle annually conducts a poll of Washington 
motorists to learn what they do behind the wheel and what they perceive 
to be the most dangerous distractions. In a 2004 survey of 600 
Washington drivers, the top self-reported distraction is that they eat 
while driving. Sixty 5 percent admitted they ate while driving. This 
was followed by almost 60 percent who said they used a cell phone while 
driving. Shaving or applying makeup came in at fourteen percent and 3 
percent said they texted while behind the wheel. PEMCO's most recent 
poll released this past June indicated that eighteen percent of 
Washington drivers said that they read or send text messages while 
driving. This is up from 6 percent of motorists in 2008 and represents 
a six-fold increase in 5 years.
    In 2007, when the state legislature was considering a bill to ban 
texting while driving, some argued for government to take a wait and 
see approach before it took any action. They pointed to data collected 
by the Washington State Patrol indicating hand held electronic devices 
were a factor in less than 1 percent of collisions and 3 percent of 
fatal crashes. And they could also point to the fact that the three 
leading contributing circumstance in fatal collisions remain driving 
under the influence of alcohol, exceeding reasonable safe speed, and 
not wearing a seatbelt.
    Washington State prides itself as a leader in reducing deaths and 
serious injuries from collisions. For example, over ninety 6 percent of 
our drivers wear their seat belts. It was not surprising then that 
state legislators wanted to nip the growth of this dangerous and 
preventable distraction in the bud before it did become a more 
significant contributing circumstance in collisions.
    Washington State became the first state in the Nation to pass a law 
that made texting while driving in a motor vehicle illegal. Our law 
went into effect in January 2008. But similar to our law that prohibits 
talking with a wireless phone to your ear, texting while driving is a 
secondary offense. This means that a driver will only get a $124 ticket 
if they are stopped for another moving traffic violation. Additionally, 
the Washington State Patrol examines other driver distractions on a 
case-by-case basis in traffic stops with fines up to $550.
    To date, the Washington State Patrol has issued on the order of 250 
tickets for texting while driving. But more telling is that officers 
have issued over twice as many warnings. Ultimately, it is about 
educating drivers and changing their behavior.
    The Federal Government can and should support states in educating 
motorists about the dangers of distracted driving and in promoting 
defensive driving. But laws banning texting in passenger vehicles and 
the enforcement of these laws are best carried out at the state level.
    I recognize that companies producing wireless electronic devices 
for use in passenger vehicles are already working on how to incorporate 
text-to-voice features into future generations of hands-free product. 
If successful, text-to-voice may mitigate one new and dangerous type of 
driving distraction, but not eliminate the danger of distracted driving 
entirely.
    I can't help but to think back to the 2004 PEMCO Insurance survey 
where 65 percent of respondents said they ate while driving. We will 
never be able to eliminate distracted driving. But similar to our 
approach in reducing impaired driving or convincing car occupants to 
wear seatbelts, we have to be in it for the long haul. We need to be 
persistent. We need to make sure that education and enforcement efforts 
are sustained over time.
    Companies should be encouraged to make it corporate policy--
immediately--that its employees use only hands-free wireless devices 
and do not text while driving. The President set out a good example in 
his Executive Order for Federal workers.
    I look forward to hearing from the witnesses.

                                 ______
                                 
 Prepared Statement by Hon. John Thune, U.S. Senator from South Dakota

    Thank you, Mr. Chairman, for holding today's hearing on the 
important highway safety issue of Distracted Driving. I also want to 
thank Secretary LaHood and Chairman Genachowski for testifying today.
    Let me begin by commending Secretary LaHood for holding the recent 
summit on distracted driving. While distracted driving is not a new 
issue, DOT's summit has significantly heightened awareness about the 
seriousness of the problem. I think we have all been guilty at one time 
or another of multi-tasking in our cars, whether by talking on a hand-
held cell phone, reading the headlines from today's newspaper, or 
dispensing with e-mail. But accident statistics show it is time to stop 
multi-tasking and time to give complete attention to our driving.
    In my home State of South Dakota, distracted driving is especially 
dangerous for teenagers. South Dakota's Department of Highway Safety 
estimates that in 2007, distracted driving was a factor in over 50 
percent of the crashes involving teen-aged drivers. Overall, distracted 
driving has been a contributing factor for about 3 percent of drivers 
in fatal crashes in South Dakota--a lower contributing factor than 
speeding and driving under the influence, but still significant.
    Action is needed, but not through a heavy-handed Federal mandate. 
The States are best able to address this issue--like so many other 
issues--and can do so without the threat of having their Federal 
highway funds withheld unless they take specific action dictated from 
here in Washington.
    A better approach is the one Senators Rockefeller, Hutchison, 
Lautenberg, Schumer and I are supporting, which would encourage the 
States to adopt distracted driving legislation by offering incentive 
grants to States that do so. Any State that adopts a law to prohibit 
the use of a hand-held cell phone and texting while driving, except in 
emergencies, would be eligible for a grant. Since unused funds 
available for existing programs would be used to fund grants for 
distracted driving, there would be no net increase in Federal spending.
    The Federal Government does have a direct role to play in ensuring 
the safety of truck, motor coach, and school bus operations, and our 
bill would direct the Federal Motor Carrier Safety Administration to 
issue regulations on the appropriate use of electronic devices by those 
drivers. It is important that we address the behavior of all drivers, 
and I hope the American Trucking Associations, Owner-Operator 
Independent Drivers Association, American Bus Association, and school 
bus drivers will work with us to enact this legislation.
    Thank you, Mr. Chairman. I look forward to hearing from our 
witnesses.

                                 ______
                                 
        Prepared Statement of Edward Moreland, Vice President, 
        Government Relations, American Motorcyclist Association

    Chairman John D. (Jay) Rockefeller IV, Ranking Member Kay Bailey 
Hutchison and members of the Committee, thank you for the opportunity 
to provide comment on the issue of the use of technology in combating 
distracted motor vehicle operation.
    Founded in 1924, the American Motorcyclist Association (AMA) is the 
premier advocate of the motorcycle community representing the interests 
of millions of on- and off-highway motorcyclists. Our mission is to 
promote the motorcycle lifestyle and protect the future of 
motorcycling.
    The AMA is encouraged to learn that this Committee, by holding this 
hearing, acknowledges the dangers attributed to distracted driving, and 
places a priority on finding practical and fair solutions for all road 
users. The AMA requests to be included whenever developing technologies 
are discussed, so that we may take into account the presence of 
motorcycles, bicycles and pedestrians. This issue greatly affects the 
motorcycle community, and bringing awareness to it may prevent crashes 
from occurring in the first place, and thereby reduce the likelihood of 
injury to all users of America's roadways.
    The increasing numbers of motorcycle crashes caused by distracted 
drivers have spurred action on the part of the motorcycle community. 
Indeed, a recent AMA presentation at a motorcycling conference in 
Emporia, Kansas focused on the issue of distracted driving. The AMA 
will deliver this same presentation at upcoming motorcycling 
conferences in Indiana, Michigan, Illinois, Pennsylvania and Ohio to 
motivate activists in the motorcycling community to bring greater 
attention to this issue.
    In addition to the aforementioned conferences, the AMA recently 
released a position statement addressing the issue of distracted and 
inattentive vehicle operation. In our statement, we acknowledged and 
emphasized that the primary responsibility of all roadway users is the 
safe operation of their vehicles, regardless of the source behavioral 
or technological--of the distraction. To see AMA's full position 
statement on distracted and inattentive vehicle operation, please see 
attached document.
    Recently, the AMA was invited to attend the recent U.S. Department 
of Transportation Distracted Driving Summit in Washington, D.C., hosted 
by Transportation Secretary Ray LaHood. During the question and answer 
session following the Legislation, Regulation and Enforcement of 
Distracted Driving panel discussion on day two of the Summit, the AMA 
posed questions to the panel.
    We expressed our concern that little to no attention was paid to 
America's roadway users, such as motorcyclists, bicyclists and 
pedestrians, when research and technology issues were discussed. 
Furthermore, we requested to be included whenever distracted driving 
issues are discussed
    because our community has experienced many personal tragedies 
directly attributable to distracted or inattentive vehicle operation.
    I wish to thank the Chairman, the Ranking Member and the Committee 
for holding this hearing on combating distracted driving. The AMA 
respectfully requests that the motorcycling community be included in 
the ongoing discussions and development of technologies so that 
comprehensive solutions are found that take into account motorcyclists, 
bicyclists, and pedestrians.
                                 ______
                                 
                               Attachment

AMA Position Statement on Distracted and Inattentive Vehicle Operation

    All road users are responsible for the safe operation of their 
vehicles on public roads and highways. Advances in mobile technology 
have made it easier than ever to become momentarily distracted by 
operating the controls of a stereo system, a global positioning unit, 
or some other device.
    The American Motorcyclist Association (AMA) acknowledges that 
motorcyclists in addition to car drivers, truck drivers, and even 
bicyclists--share this responsibility. Distracted motorcycle operation 
can be every bit as dangerous to the operator, other road users, and 
pedestrians as the distracted operation of a larger motor vehicle.
    The AMA recognizes that distracted or inattentive driving has 
become a major concern to the motorcycling community. Far too many 
cases have been documented of motorcyclists being injured or killed as 
the result of other vehicle operators being distracted or inattentive.
    Motor vehicle operators engaged in distracted or inattentive 
driving behaviors are not just a danger to motorcyclists they endanger 
pedestrians, bicyclists, roadside assistance and emergency medical 
personnel, highway construction workers, law enforcement personnel, and 
the list goes on. For too long, inappropriate non-driving activities 
while operating a motor vehicle have been accepted as just the way it 
is.
    Even the National Highway Traffic Safety Administration (NHTSA) 
acknowledges that distracted and inattentive driving behaviors have 
significantly contributed to motor vehicle crashes. From an NHTSA 
report:
     Driver inattention is the leading factor in most crashes and near-
crashes, according to a landmark research report released today by the 
National Highway Traffic Safety Administration (NHTSA) and the Virginia 
Tech Transportation Institute (VTTI). Nearly 80 percent of crashes and 
65 percent of near-crashes involved some form of driver inattention 
within 3 seconds before the event. Primary causes of driver inattention 
are distracting activities, such as cell phone use, and drowsiness.
    Within the last few years in nearly every state, new legislation 
has been introduced to address some facet of distracted or inattentive 
driving. Most of the bills are well intentioned. However, almost all 
focus on only one or a few in-vehicle behaviors, such as cell phone or 
text messaging system use, rather than addressing the main issue. Other 
bills, particularly those with age-based restrictions or prohibitions, 
are virtually unenforceable in the real world.
    Several bills, however, specify that distracted or inattentive 
behavior that contributes to a crash would subject the vehicle operator 
to enhanced penalties, similar to aggravating circumstances such as 
operating a motor vehicle under the influence of alcohol or drugs. This 
approach is promising because enhanced penalties for violations 
resulting in injury or death to other roadway users holds violators 
more accountable for their actions. Note that specific restrictions or 
prohibitions are not required any distracted or inattentive behavior 
that can be documented prior to a crash can be used as evidence.
    Therefore, the AMA supports legislation that includes enhanced 
penalty options to be determined by the courts. Examples of penalties 
include the following, but are not limited to enhanced fines, operator 
s license suspension, points assessed on an operator s record, 
community service, and imprisonment. Additionally, the AMA supports the 
prominent placement of signage that notifies roadway users that the 
state provides specific sanctions for those convicted of moving 
violations while operating a motor vehicle in a distracted or 
inattentive manner. The inclusion of these sanctions depends on a state 
s current penalty structure of similar-magnitude offenses.
    The AMA has adopted this position statement on distracted and 
inattentive motor vehicle operation because roadway users such as 
motorcyclists, bicyclists and pedestrians pay a disproportionally 
higher price for motor vehicle operator distraction and inattention.
References
    Source: Breakthrough Research on Real-World Driver Behavior 
Released, NHTSA, April 20, 2006, http://tiny.cc/5ohRr The 100 Car 
Naturalistic Driving Study, NHTSA, DOT HS 808 536, http://tiny.cc/vOUMA 
An Overview of the 100-Car Naturalistic Study and Findings, Vicki L. 
Neale, http://tiny.cc/mL8QL.
                                 ______
                                 
                                        AT&T Services, Inc.
                                   Washington, DC, November 3, 2009
Hon. John D. Rockefeller IV,
Chair, U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Frank R. Lautenberg,
Chair, U.S. Senate Subcommittee on Surface Transportation and Merchant 
            Marine Infrastructure, Safety, and Security,
Washington, DC.

Dear Chairman Rockefeller:
Dear Chairman Lautenberg:

    AT&T congratulates you on introducing S. 1938, the Distracted 
Driving Prevention Act of 2009, and commends your leadership in 
convening the recent hearing, ``Combating Distracted Driving: Managing 
Behavioral and Technological Risks.'' This is legislation we are 
delighted to endorse, and pledge to you our full efforts to assist in 
its passage. We feel the measure is vitally needed, and, if enacted, 
could save lives.
    Our support for this legislation, and particularly its emphasis on 
public education and outreach, flows naturally from our own customer 
and general public education initiatives. Starting next week, dozens of 
wireless devices offered in our stores will feature a ``don't-textand-
drive'' message on their protective packaging, and were working with 
numerous manufacturers to incorporate similar messaging into user 
guides and handset boxes as well. Starting next month, we will initiate 
a new public awareness campaign across traditional and digital mediums 
to remind consumers to not text and drive.
    In addition AT&T has revised its internal wireless and motor 
vehicle polices to expressly prohibit its 290,000 employees from 
texting while driving, and is incorporating a section on the dangers of 
texting while driving in its defensive driving classes for all 
employees who drive on the job.
    We believe that our initiatives, as well as the those of our 
partners, such as The National Safety Council, are already beginning to 
bear fruit in this effort, and we are optimistic that we will continue 
to see extremely high levels of internal and external awareness of the 
dangers of distracted driving in general, and texting while driving in 
particular. We look forward to partnering with you and other 
stakeholders to address these challenges in the months ahead.
            Very truly yours,
                                               Jim Cicconi,
                                  Senior Executive Vice President, 
                                  External and Legislative Affairs,
                                                    AT&T Services, Inc.
                                 ______
                                 
    Truck Safety Coalition, Parents Against Tired Truckers 
               and Citizens for Reliable and Safe Highways,
                                    Arlington, VA, December 1, 2009
Hon. John D. Rockefeller IV,
Chair,
U.S. Senate Commerce, Science, and Transportation Committee
Washington, DC.

  Support for the Distracted Driving Prevention Act of 2009

Dear Mr. Chairman:
    The Truck Safety Coalition, a partnership between Citizens for 
Reliable and Safe Highways (CRASH) and Parents Against Tired Truckers 
(P.A.T.T.), is writing to inform you of our support for S. 1938, the 
Distracted Driving Prevention Act of 2009. We applaud your leadership 
and continuing efforts to improve commercial motor vehicle safety and 
specifically, addressing the growing problem of driver distraction with 
this legislation. The Truck Safety Coalition is dedicated to reducing 
the number of deaths and injuries caused by truck-related crashes, 
providing compassionate support to truck crash survivors and families 
of truck crash victims, and educating the public, policy-makers and 
media about truck safety issues.
    Considering that nearly 5,000 people are killed and 100,000 more 
are injured each year in truck crashes, we specifically commend your 
inclusion of the provisions addressing commercial motor vehicle 
drivers. Currently, large trucks make up only 3 percent of all 
registered vehicles but represent 9 percent of all vehicles involved in 
fatal crashes and 12 percent of all crash fatalities. The large number 
of truck-related deaths is equivalent to one airplane crash every week. 
A growing number of scientific studies have verified the serious, 
adverse impact on driver and passenger safety as a result of using one 
or more types of electronic devices. Similar to airplane pilots, 
commercial motor vehicle drivers should not have their attention 
diverted from safe operation of their vehicles.
    This legislation is a comprehensive step toward addressing the 
dangers of distracted driving. Additional recent positive actions on 
this issue include President Obama's issuance of an Executive Order 
last month which prohibited Federal employees from texting while 
driving. In July, the Washington Area Metropolitan Transit Authority in 
the District of Columbia issued a zero-tolerance policy for Metro bus 
and rail operators using mobile devices while on the job, and a year 
ago, the Federal Railroad Administration issued an Emergency Order 
restricting the use of electronic devices by railroad employees after a 
commuter/freight train head-on collision. Considering the dramatic, 
highly disproportionate impact on public safety that results from large 
truck crashes, now is the time to establish appropriate controls over 
the use of devices that distract one from performing an already 
challenging task.
    Thank you once again for introducing this important and potentially 
life-saving legislation. We look forward to working with you and your 
staff to assist your efforts.
            Sincerely,
                                               John Lannen,
                                                Truck Safety Coalition.
                                            Joan Claybrook,
                               Citizens for Reliable and Safe Highways.
                                               Daphne Izer,
                                        Parents Against Tired Truckers.
                                 ______
                                 
From: Ted Knappen
Sent: Thursday, November 05, 2009 11:49 AM
To: Phillips, Mary (Commerce)
Cc: Begeman, Ann (Commerce); Drake, John (Commerce); Porter, Melissa 
            (Commerce); `Clyde Hart'
Subject: distracted driving

Mary,

    During our recent meeting, you asked that we review and comment on 
S. 1938, the distracted driving bill introduced recently by the 
bipartisan Commerce Committee leadership. Greyhound and its parent 
corporation, FirstGroup America, both strongly support this 
legislation. Greyhound is the Nation's largest fixed route intercity 
bus operator and FGA is the largest school bus contractor and a leading 
transit bus contractor.
    The key provision of S. 1938 for us is Section 8, which requires 
DOT to promulgate within a year a regulation governing the use of 
electronic devices or wireless devices, including cellphones by drivers 
of commercial vehicles and school buses. This section does not mandate 
a particular result, but rather directs DOT to promulgate rules based 
on research and analysis, which ``prohibit the use of such devices in 
circumstances in which the Secretary determines that their use 
interferes with the driver's safe operation of a school bus or 
commercial motor vehicle.'' An exception is allowed ``if the Secretary 
determines that such use is necessary for the safety of the driver or 
the public in emergency circumstances.''
    Distracted driving is a critical safety issue and is one that DOT 
should address with regard to commercial vehicles and school buses. 
Indeed, consideration should be given to expanding the legislation to 
include transit buses. The bill takes the right approach in directing 
DOT to do the necessary research and analysis and then promulgate rules 
based on that analysis.
    I should note that FGA has already moved to combat distracted 
driving. In 2008, FGA adopted a new company-wide policy, which applies 
to all divisions including Greyhound. That policy prohibits all 
employees and contractors from using a mobile device, either hand-held 
or hands-free, while driving. Employees are instructed to pull over at 
a safe location and turn off the engine before making a call or sending 
a text message.
    FGA and Greyhound support S. 1938 and would be happy to work with 
the Committee to achieve its early passage.
            Thanks.
                                               Ted Knappen,
                                 Government Affairs Representative,
                                      FirstGroup America and Greyhound.

                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                            Hon. Ray LaHood

    Question 1. Secretary LaHood, how many deaths and serious injuries 
annually are caused by impaired driving as compared to those caused by 
distracted driving?
    Answer. The crash data collected by NHTSA do not allow 
determination of specific causes of crashes. However, the agency can 
use these data to estimate the numbers of deaths or injuries in crashes 
involving driver distraction or impaired driving. In 2008, nearly 6,000 
people died in crashes involving a distracted driver, and it is 
estimated that more than half a million were injured. In 2008, nearly 
12,000 people were killed in alcohol-impaired driving crashes, where a 
driver had a blood alcohol level above 0.08 BAC--the legal limit in 
every State.

    Question 2. Secretary LaHood, Washington State bans texting while 
driving, but it is a secondary offense. A motorist first has to be 
pulled over for a moving violation, before the officer can write a 
ticket for texting while driving or using a handheld wireless device. 
In other states that ban texting while driving, it is a primary 
offense. Based on the Department's Distracted Driving Summit, in terms 
of effectiveness, do you believe it makes a difference whether the 
violation is a primary or secondary offense?
    Answer. The Department's experience with primary and secondary seat 
belt laws strongly suggests that secondary driver distraction laws will 
be difficult to enforce and consequently less effective than 
distraction laws that allow primary enforcement. Law enforcement 
leaders and other experts who participated in the Department's Driver 
Distraction Summit strongly recommended that states enact primary 
enforcement driver distraction laws.

    Question 3. Secretary LaHood, one source of driver inattention is 
fatigue. As you know, in recent years, the Committee has examined 
issues surrounding operator fatigue in rail, airline, and trucking 
industries. Currently, is the Department is looking at what, if 
anything, can be done to reduce the risks associated with driver 
fatigue in passenger vehicles?
    Answer. Crash reports indicate that in 2008, drowsy drivers were 
involved in 741 fatal crashes (2 percent of all fatal crashes), 36,000 
injury crashes (2 percent of all injury crashes), and 43,000 property-
damage only crashes (1 percent of all property-damage only crashes). 
NHTSA continues to study crash avoidance systems that are designed to 
alert inattentive drivers of the need to take avoidance actions or that 
actually initiate vehicle actions to prevent or reduce the severity of 
an imminent crash. Such systems include lane departure warning systems, 
forward collision warning systems, and crash-imminent braking systems.

    Question 4. Secretary LaHood, in its September 2009 Traffic Fact 
Safety Note, the National Highway Traffic Safety Administration says it 
is engaged in researching driver distraction with respect to both 
behavioral and vehicle safety countermeasures in an effort to 
understand and mitigate crashes associated with driver distraction. 
What are some of these specific efforts?
    Answer. We are implementing a DOT-wide action plan to address 
distracted driving, including a personal commitment from me to take a 
tough stance against distracted driving by our employees. This action 
plan addresses safety regulation and enforcement, partnerships with 
State and local governments, education and outreach, and further 
research. The areas for research that we are planning are: (1) working 
alongside industry and State and local partners to develop best 
practices and standards for electronic devices that will minimize 
distraction risk across all modes of transportation, and (2) continue 
developing the most comprehensive possible set of data to gain a better 
understanding of how we can allow technology to evolve without 
distracting drivers and sacrificing safety. As additional research is 
being planned, we will engage stakeholders and the public to most 
effectively shape the research projects we undertake.

                                 ______
                                 
Response to Written Questions Submitted by Hon. Frank R. Lautenberg to 
                            Hon. Ray LaHood

    Question 1. In addition to examining the dangers of distracted 
driving, will the Department of Transportation investigate and educate 
the public about the dangers of cell phone use for pedestrians?
    Answer. While the focus of the Department's distraction efforts is 
currently on drivers, we will continue to collect and analyze any 
available information on the issue of distracted pedestrians. In 2008, 
police crash reports listed inattention of the pedestrian as a factor 
in 87 pedestrian fatalities (2 percent of all pedestrian fatalities). 
Reports of pedestrian inattention could include talking, eating or 
reading a book while walking. In total, more than 4,000 pedestrians 
were killed and nearly 70,000 were injured in 2008. Estimates of the 
proportion of these deaths that might be attributed to specific types 
of pedestrian distraction are not available. DOT will continue to 
advance its transportation safety agenda.

    Question 2. Over the past decade, the number of people killed in 
crashes with large trucks has averaged five thousand each year. What 
actions is this Administration taking to reduce the number of 
fatalities caused by large trucks?
    Answer. NHTSA is focusing on brakes, tires, and the potential 
benefits of electronic stability control. The agency issued a final 
rule in July 2009 to reduce the stopping distance of truck tractors and 
is evaluating whether a similar approach is needed for straight trucks 
and buses. NHTSA also is conducting extensive testing on the tires used 
in commercial and bus applications and expects to propose an upgrade of 
the tire standard in FY2010. The agency is conducting research on 
electronic stability control (ESC) and roll stability control (RSC) 
systems that are equipped on truck tractors and motor coaches. NHTSA 
expects to make a regulatory decision later this year on ESC.
    NHTSA is also researching the safety benefits, performance 
characteristics, and the integration of advanced driver assistance 
systems that aid in crash prevention and mitigation for heavy trucks. 
The agency coordinates closely with the Federal Motor Carrier Safety 
Administration (FMCSA) on in-service safety issues such as antilock 
braking systems, driver fatigue, vision enhancement systems, and 
stability control. In several areas, FMCSA is conducting research on 
in-service vehicles, which can provide NHTSA with supporting data to 
achieve its rulemaking objectives.
    FMCSA is committed to saving lives and reducing injuries through 
the enforcement of the Federal Motor Carrier Safety Regulations and the 
Federal Hazardous Materials Regulations. As of 2008 (the most recent 
calendar year for which crash data is available), the fatality rate 
from crashes involving large trucks and buses fell to 0.155 fatalities 
per 100 million vehicle miles traveled (VMT), the lowest rate yet 
achieved. Part of this decline may be attributable to reduced VMT in 
the current recession, but the downward trend is unmistakable.
    While the reduction in the fatality rate represents significant 
progress, we acknowledge that much more needs to be done to reduce the 
number of fatalities. We will continue to focus our efforts on the 
issuance of new safety regulations, development of more stringent and 
effective safety and enforcement programs, delivery of enhanced 
education and outreach materials to assist the truck and bus industries 
in achieving greater levels of compliance, research, technology 
transfer, and information technology systems modernization. We will 
also continue our efforts to educate drivers of non-commercial 
vehicles, whose unsafe behavior causes many truck and bus crashes. The 
following is a summary of some of the initiatives we are pursuing to 
further enhance commercial motor vehicle (CMV) safety.

  <bullet> Distracted Driving--On September 30-October 1, the 
        Department held a Distracted Driving Summit to identify 
        potential solutions to the problem of passenger car and CMV 
        drivers diverting their attention from the roadway for 
        distracting activities such as using of electronic devices. The 
        Department will initiate a rulemaking to prohibit texting by 
        all CMV operators and to ensure that school bus drivers are 
        disqualified from transporting children to and from school if 
        they are convicted of texting while driving. The Department 
        will also initiate a rulemaking to restrict the use of cell 
        phones, especially by bus drivers.

  <bullet> Reconsideration of Truck Drivers' Hours of Service--FMCSA is 
        initiating a new hours-of-service rulemaking to determine 
        whether certain provisions of the current rule should be 
        amended or revised to improve the safe operation of CMVs. The 
        Department has entered into a settlement agreement with safety 
        advocacy groups and others to hold in abeyance a petition for 
        judicial review of FMCSA's November 19, 2008, final rule 
        concerning hours of service pending the issuance of an NPRM.

  <bullet> Electronic On-Board Recorders (EOBRs)--FMCSA previously 
        issued a proposed rule on EOBRs that would amend the Federal 
        Motor Carrier Safety Regulations to incorporate new standards 
        for EOBRs, and address the need for mandatory installation of 
        EOBRs on commercial motor vehicles. FMCSA expects to complete 
        the rulemaking by the spring of 2010.

  <bullet> Comprehensive Safety Analysis 2010--FMCSA will issue a 
        Notice of Proposed Rulemaking to implement a new safety fitness 
        determination process based on its new Safety Measurement 
        System (SMS). The new SMS is a high-risk carrier identification 
        and intervention system that will enable the Agency to identify 
        at-risk carriers sooner than the current process (SAFESTAT) and 
        the rulemaking will enable the Agency to remove more unsafe 
        carriers from the Nation's highways than the current safety 
        fitness determination process.

  <bullet> Controlled Substances and Alcohol Test Results Database--
        FMCSA will initiate a rulemaking proposing a National database 
        of verified positive controlled substances and alcohol test 
        results to ensure that drivers who test positive for controlled 
        substances and alcohol comply with the requirements to see a 
        substance abuse professional (SAP) and successfully complete 
        return-to-duty and follow-up testing

  <bullet> New Entrant Safety Assurance Program--In December 2009, 
        FMCSA will fully implement new requirements for companies 
        entering into the motor carrier industry. Under the new 
        program, new entrant carriers that fail to demonstrate they 
        have all the required safety management controls in place at 
        the time of the new entrant audit will be subject to tougher 
        enforcement actions. Motor carriers that fail to correct 
        deficiencies in their safety management controls will be shut 
        down.

  <bullet> New Applicant Screening Process--FMCSA will continue to 
        implement its New Applicant Screening Process to verify that 
        new carriers entering into the industry are not in fact 
        ``chameleon'' carriers--existing companies that are attempting 
        to evade FMCSA and State agencies by shutting down their 
        operations after enforcement actions have been initiated, and 
        reopening under a new business name.

  <bullet> Motorcoach Safety Plan--The Department has developed a 
        Motorcoach Safety Plan to significantly enhance commercial 
        passenger carrier safety. FMCSA, NHTSA, FHWA, FTA, and PHMSA 
        collaborated in the development of a comprehensive plan and 
        reached out to stakeholders to get feedback on the plan. The 
        plan was released on November 16. It addresses major safety 
        issues, such as driver fatigue and inattention, vehicle 
        rollover, occupant ejection, and oversight of unsafe carriers.

  <bullet> Medical Review Board--FMCSA operates a Medical Review Board 
        (MRB)--a Federal Advisory Committee authorized by SAFETEA-LU--
        that is responsible for providing advice and recommendations on 
        the Agency's medical standards. The MRB has considered the most 
        up-to-date scientific data and provided recommendations on a 
        number of medical topics, including criteria for cardiovascular 
        conditions, vision, diabetes, seizure disorders, and sleep 
        apnea. The Agency will establish rulemaking teams to develop 
        regulatory options.

  <bullet> Merger of Medical Certification and Commercial Driver's 
        License (CDL) Issuance and Renewal Process--FMCSA will 
        implement new requirements for interstate CDL holders to submit 
        to their State licensing agencies proof of their medical 
        qualifications. The information would then be posted on their 
        electronic driving record so that law enforcement officials can 
        verify their medical certification status during roadside 
        inspections. Individuals who allow their medical certificates 
        to expire will have their CDLs downgraded, automatically.

  <bullet> Establishment of a National Registry of Certified Medical 
        Examiners--The Agency has proposed new training and testing 
        requirements for all healthcare professionals responsible for 
        issuing medical certificates to truck and bus drivers. The 
        rulemaking would ensure that medical examiners are 
        knowledgeable about the Federal physical qualification 
        standards and apply the rules in a consistent manner. Medical 
        examiners who fail to comply with the requirements would be 
        removed from the National Registry and could no longer issue 
        medical certificates.

  <bullet> Safety Belt Campaign--FMCSA will continue its outreach 
        campaign to increase the safety belt usage rate of CMV drivers. 
        Historically, drivers of large trucks have lagged behind the 
        general driving public in safety belt usage. FMCSA's efforts 
        have led to an increase in safety belt usage among drivers of 
        large trucks. As of calendar year 2008, safety belt usage among 
        CMV drivers is estimated to have increased to 72 percent, 
        compared to 84 percent for passenger vehicle occupants.

    Question 3. My rail safety law, which was enacted last year, 
required the DOT to study the use of personal electronic devices by 
railroad employees. Based on this study, what long-term actions does 
DOT plan to take regarding the use of electronic devices by railroad 
workers?
    Answer. DOT shares your concerns about the use of personal 
electronic devices by railroad employees. On October 1, 2008, DOT's 
Federal Railroad Administration (FRA) issued Emergency Order No. 26, 
which restricts the use of personal electronic devices by railroad 
operating employees during any period they are responsible for safety-
critical duties. FRA has started a rulemaking to codify the emergency 
order. FRA also intends to do additional research to evaluate whether a 
broader ban is required.

                                  <all>

</pre></body></html>
